<html>
<title> - AFTER THE EARTHQUAKE: EMPOWERING HAITI TO REBUILD BETTER</title>
<body><pre>[Senate Hearing 111-765]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-765

        AFTER THE EARTHQUAKE: EMPOWERING HAITI TO REBUILD BETTER

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                  U.S. GOVERNMENT PRINTING OFFICE
  63-054 PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        











                            C O N T E N T S

                              ----------                              
                                                                   Page

Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Corker, Hon. Bob, U.S. Senator from Tennessee, statement.........     5
Kaufman, Hon. Edward E., U.S. Senator from Delaware, statement...     6
Kerry, Hon. John F., U.S. Senator from Massachusetts, statement..    49
Merten, Hon. Kenneth H., U.S. Ambassador to Haiti, Department of 
  State, Port-au-Prince, Haiti...................................    11
    Prepared statement...........................................    14
    Response to question submitted for the record by Senator 
      Russell D. Feingold........................................    62
Milligan, T. Christopher, Coordinator for Disaster Response in 
  Haiti, U.S. Agency for International Development, Washington, 
  DC.............................................................     7
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    63
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    65
Natsios, Hon. Andrew S., distinguished professor, School of 
  Foreign Service, Georgetown University, Washington, DC.........    29
    Prepared statement...........................................    33
Penn, Sean, founder, J/P Haitian Relief Organization, San 
  Francisco, CA..................................................    38
    Prepared statement...........................................    41
Schneider, Mark, senior vice president, International Crisis 
  Group, Washington, DC..........................................    42
    Prepared statement...........................................    45

                  Additional Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    61

                                 (iii)






 
        AFTER THE EARTHQUAKE: EMPOWERING HAITI TO REBUILD BETTER

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Robert P. Casey, 
Jr., presiding.
    Present: Senators Casey, Kerry, Shaheen, Kaufman, 
Gillibrand, and Corker.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing will come to order.
    I want to thank everyone for being here this morning. This 
is a critically important issue that we need to spend a good 
deal of time on this morning, and I'm grateful you're all here 
to do this.
    The committee meets to discuss the effectiveness of the 
international response efforts 4 months after an earthquake 
devastated Haiti, and examine what remains to be done in 
cooperation with the Haitian Government and the international 
community. This discussion is particularly important as we 
transition from recovery efforts to rebuilding.
    I'd like to thank all of our witnesses for their personal 
commitment to helping Haiti in the aftermath of the earthquake. 
On Monday, we know that Secretary Clinton honored 11 United 
States officials who perished in Haiti's earthquake. I also 
want to recognize their public service in the demonstration of 
America's goodwill abroad.
    With us today to discuss United States Government efforts 
in Haiti are Christopher Milligan and Kenneth Merten. Mr. 
Milligan is coordinating the largest joint relief effort that 
the United States has undertaken to date. His success suggests 
that investments in disaster situation relief training and 
preparation at USAID have paid off. Over the last 20 years, 
Ambassador Merten has worked on development issues in Haiti, 
and has played a critical role in helping to save lives.
    I also look forward to hearing the testimonies of our 
nongovernment witnesses, each of whom has substantial 
experience working on international development issues. Andrew 
Natsios served as USAID Administrator during the Bush 
administration. Sean Penn cofounded the Jenkins-Penn Haiti 
Relief Group. And Mark Schneider is a former United States 
Agency for International Development official who coordinated 
the U.S. response to Hurricane Mitch in 1998. He is now a 
senior vice president of the International Crisis Group.
    Much progress has been made during this post-disaster 
period in Haiti, which I'll review in a few moments, but the 
scale of this tragedy cannot be underestimated, and we must 
redouble our efforts to better coordinate relief and rebuilding 
work among the international community and with the Haitian 
Government. The United States has a special responsibility to 
play a leading role in rallying the international community to 
make good on its commitments.
    I fear--and I know this is a fear that's widely shared--
that as the number of days since the earthquake grow, the 
resolve and focus of the international community diminishes. I 
hope--I hope that the witnesses today can reassure me that that 
is not the case. We all have an obligation to make sure that 
that is not the case.
    I know that people on the ground are committed, 
experienced, and dedicated to the task at hand, but it is our 
responsibility here in Congress to ask how this critically 
important endeavor can be moved faster, more efficiently and 
with a greater sense of urgency, which sometimes isn't the case 
in Washington, DC. But, we've got to have a greater sense of 
urgency to get the job done and to make sure that Haiti does, 
indeed, rebuilt better, not just to some other predisaster 
level, but rebuild, in fact, in a better way for the future of 
the Haitian people.
    In the aftermath of the disaster, the United States 
deployed 22,000 personnel to provide humanitarian aid to the 
people of Haiti in support of the Haitian Government and the 
U.N. stabilization mission in Haiti, known as MINUSTAH. The 
USAID was first on the ground and led a 544-person disaster 
assistance response team to assess immediate needs and to 
provide urgent supplies of food, water, medical care, and other 
aid to 1.5 million survivors left homeless by the quake. The 
agency also established an interagency task force to better 
coordinate relief efforts, partnering with large and small 
organizations in Haiti to bring shelter, health care, and 
employment opportunities to Haitians. Twenty-thousand members 
of the United States military distributed food, water, and 
medical supplies. Faced with large numbers of displaced 
children, the Department of State stepped up efforts to help 
prevent child trafficking.
    More than 100 U.N. staff, including senior mission 
leadership, were among the more than hundreds of thousands of 
dead in the massive earthquake, representing the biggest single 
loss of life in the history of U.N. peacekeeping. Despite these 
losses and displacement from mission headquarters MINUSTAH has 
continued its mission of maintaining a secure and stable 
environment throughout Haiti. It continues to support many 
nongovernmental organizations that operated in Haiti prior to 
the disaster through security for international--or, for 
internally, I should say, displaced persons, road clearance, 
rubble removal, and other vital assistance.
    Despite the immediate response from the international 
community and private citizens around the world, more than a 
million displaced Haitians are living in squatter communities 
and remain at risk as hurricane season approaches. That is an 
understatement, to say that they're at risk. It's difficult to 
overstate the destruction wrought by this earthquake and the 
challenges that lie ahead.
    Many people who have traveled to Haiti after the June 12th 
earthquake have said, ``No one can come to Haiti and leave 
unchanged.'' The official death toll stands at 230,000 people, 
including 104 Americans and hundreds of international aid 
workers. Many experts believe that the death toll will rise to 
a half a million people.
    Even before the earthquake, Haiti had the highest maternal 
mortality rate in the Western Hemisphere, and approximately 
120,000 people were living with HIV/AIDS. Public hospitals, 
before the tragedy, lacked staff, drugs, and equipment, and 
numerous factors impeded access to health care services. The 
earthquake has worsened the situation substantially. Haiti's 
Ministry of Health estimated that over 60 percent of the 
medical structures in the areas most affected by the earthquake 
were damaged or destroyed and forced large numbers of the 
population into makeshifts camps, where hygiene and medical 
care are substandard, at best.
    Post-earthquake food and water insecurity is another 
substantial challenge. There's a 50-percent increase in the 
price of food staples over the past year in Haiti and across 
the country. The media are filled with stories and images of 
unrest due to soaring food prices and pervasive hunger. Most 
Haitians earn less than a dollar a day and spend more than half 
their income--spend more than half their income on food.
    There are--these are among the many challenges we confront. 
On March 31, pledges of more than $15 billion were made at the 
International Donors Conference in New York, which was attended 
by more than 100 countries and international organizations. 
Haitian authorities described the outpouring as, ``testimony 
that Haiti is not alone.''
    Now that the Donors Conference is over and officials have 
returned to Port-au-Prince, the real work begins. We must match 
dollars to the pledges and ensure that the international 
efforts result in a Haitian state and society ``built back 
better,'' to use the words of former President Clinton, who has 
done great work over many years in support of Haitian 
development.
    Devising programs that achieve concrete, sustainable 
results on a nationwide scale will not be easy. As Secretary of 
State Clinton has said, in her opening remarks at the 
conference, ``This is not only a conference about what we 
financially pledge to Haiti, we have to pledge to do better 
ourselves.'' And, of course, she's referring to post-disaster 
rebuilding.
    Among the long-term goals envisioned in the Action Plan for 
Reconstruction and National Development in Haiti, which was 
unveiled by President Preval at the Donors Conference, is a 
decentralized country based on smaller nodes of population in 
areas less prone to natural disaster than Port-au-Prince. The 
plan also targets agricultural self-sufficiency and stricter 
building codes. Also important is the development of an 
education system that does not have more than one-quarter--one-
quarter--of Haitian children outside its doors, which was the 
case before the earthquake.
    Reconstruction efforts must include revamping of the child 
welfare system and adoption policies. With black markets 
difficult to quantify, there is no precise count of the number 
of orphanages in Haiti, the numbers of children living in them, 
or the numbers of Haitian children who are victims of 
trafficking, although UNICEF does estimate the number in the 
tens of thousands per year. There's a growing concern that 
Haiti's already strained child welfare system is overwhelmed 
and that inadequate orphanages are taking in more children than 
they can handle.
    International aid will be funneled through a new Interim 
Haiti Recovery Commission, headed jointly by the U.N. special 
envoy to Haiti, former President Clinton, and Haitian Prime 
Minister Bellerive. One of the stated priorities of the Haitian 
Interim Commission will be to show that commitments made--will 
be to show the commitments made, I should say, and money 
disbursed. At the same time, the Commission faces a dual 
challenge of ensuring accountability for the billions of 
dollars, while resisting the deceleration or bottlenecking of 
funds. We'll be asking about that today.
    The Commission will also have a critical role in improving 
donor coordination. International nongovernmental organizations 
and donors have saturated Port-au-Prince and overwhelmed 
Haitian institutions. Experts remind us--and I know we have a 
number here today--that short-term and long-term objectives are 
not a zero-sum game. Approaches to short-term needs, like 
shelter and job creation, must complement a wider state-
building strategy. According to former President Clinton, 
``Until Haitians can live, day to day, and month to month, in 
healthy conditions and out of danger, it will be useless to 
expect the country to commit wholeheartedly to a long-term 
national reconstruction plan. We still have to move 20- to 
40,000 people from flood-prone camps before the rains hit, in 
July, so that they are not at risk of drowning.'' So said 
President Clinton, and we should listen to his words, and act 
on them.
    The U.S. Congress has taken a number of steps to help, 
here. Senator Dodd introduced a bill, which was signed into law 
April 26, calling for cancellation of Haiti's $1 billion 
outstanding debt. The economic lift program, the so-called HELP 
Act backed by lawmakers on both sides of the aisle, was passed 
early this month. The law expands duty-free access to United 
States markets for Haitian textile and apparel exports, and 
extends existing trade preferences for Haiti through the year 
2020.
    Last week, the Senate Appropriations Committee committed 
$2.8 billion to support relief efforts in Haiti. Currently, 
this committee is considering legislation, the Haiti 
Empowerment Assistance and Renewal Act, by Senators Kerry, our 
chairman, and Senator Corker, who's with us today--and we're 
honored by his presence, and you'll hear from him in a moment; 
I'm almost done--to authorize $3\1/2\ billion of assistance 
over 5 years for reconstruction and rebuilding of Haiti.
    So, as we move, today, to discuss Haiti's future, we have 
an obligation to do our part, that the international efforts 
are effective, that it's not just about the dollars we put in, 
but whether the lives of the Haitian people are changed--
changed--as a result of this work.
    Haiti has its own obligations. One is to be inclusive of 
all of its citizens--men, women, and children. There are a lot 
of wealthy, privileged people in Haiti, and also many, many 
poor Haitians, as well. All of them are Haitians. All of them 
are part of the strategy, going forward.
    This process won't work without Haitian Government--
governance, I should say, and leadership, which has an 
obligation to be transparent. International donors and the 
Haitian Government understand that a peaceful transition, next 
February, to a duly elected President is vital to the country's 
economic development and stability.
    Parliamentary elections also need to be held. Last 
February's elections were canceled because of the earthquake, 
leading to the expiration last week of the Haitian Parliament's 
mandate. President Preval is now the sole constitutional 
authority; thus, we urge Haitian's leaders to unite in the 
common interests of organizing free and fair elections in the 
shortest timeframe possible. Pulling off an election is 
daunting in a country where voter lists have largely been 
destroyed and where 40 percent of the citizens do not have 
identity documents. Despite these challenges, elections are 
central to Haiti's vision for a renewed state.
    President Obama has said, ``America's commitment to Haiti's 
recovery and reconstruction must endure, and will endure.'' He 
also said, ``This pledge is one that I make at the beginning of 
the crisis, that I intend for America to keep our pledge: 
American will be your partner in the recovery and 
reconstruction efforts.''
    In order to remain true to that pledge, I believe there are 
several concrete steps that we must focus on in the days and 
months ahead, and I'll be, of course, asking our witnesses 
about this.
    No. 1, hurricane season is coming. We can and must do 
everything in our power to ensure that Haiti is prepared so 
that reconstruction efforts are not set back.
    No. 2, we must rally--and that's an understatement--the 
international community to ensure that pledges are fulfilled 
and money is spent responsibly and strategically.
    No. 3, we must push for better coordination on the ground 
among the various actors who are there.
    No. 4, and final, we must encourage the Haitian Government 
to play a responsible role during this period. The Haitian 
people should have a role in determining local needs and 
reconstruction priorities. Voices from outside the government 
should be heard, and the government should clearly communicate 
in development activities across the whole of Haiti.
    We're joined today by an esteemed panel of experts who will 
discuss the many challenges confronting the international 
donors and the Haitian Government. Our first witness is 
Christopher Milligan, USAID's coordinator for disaster response 
in Haiti. Our second witness is the Honorable Kenneth Merten, 
U.S. Ambassador to Haiti since August 2009. And I'll be 
introducing our second panel very soon.
    But, I'd like to turn to our ranking member, Senator 
Corker, for his remarks.

                 STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    And I want to thank all of you for coming.
    And in a desire to hear from our witnesses, I'm going to be 
very, very brief. But, as has been stated, one of the biggest 
natural disasters ever, on January 12, 230,000 people losing 
their lives, 300,000 injured, 3 million people affected.
    It's amazing how many people in this country have a direct 
relationship with Haiti. I know we have people who are giving 
of their personal resources to help. I probably would not be 
here in the Senate today without that same type experience in 
my twenties. And I know people across our country want to make 
sure that we deal with this appropriately.
    I think there are still folks trying to help there. I know 
of a lady, named Bertha Dudone, who's a Haitian citizen, who 
was approved for travel outside of the country to Tennessee, to 
Vanderbilt Hospital, where surgeons can deal with a life-
threatening issue, and yet we cannot, still, get her out of the 
country. And so, it's those kind of things, I know, that are 
exasperating many of the efforts that are taking place.
    On the other hand, USAID, the United Nations, our State 
Department, I think have done an outstanding job in trying to 
deal with this. And I know all of us just want to see this move 
along as quickly as possible.
    So, I thank all of you for coming. I think that Haiti, for 
years--you know, we've tried to figure out a way to help Haiti 
get it right. And, you know, we've been through all kinds of 
episodes. This is an incredible disaster, but possibly there's 
an opportunity, with so many donors around the world coming 
together, to help Haiti get it more right than ever this time. 
And I think that's what all of us want to see happen.
    Senator Kerry and myself have introduced legislation that 
establishes benchmarks to move us along that path. I 
certainly--I'd look forward to hearing your comments on that.
    But, the fact is that we have some immediate needs, we have 
some midterm needs, and certainly some long-term issues that we 
need to deal with as a country, as a world community, and we 
thank you for your testimony today.
    Senator Casey. Thank you, Senator Corker. And I appreciate 
your work on this, and your presence here today.
    Senator Kaufman had some opening comments.

              STATEMENT OF HON. EDWARD E. KAUFMAN,
                   U.S. SENATOR FROM DELAWARE

    Senator Kaufman. Yes, I just wanted to say--I just want to 
thank you, both Senators, for convening--this is very 
important.
    Do not read into this fact that many Senators are not here 
as any diminution of the importance to which my colleagues find 
getting it right in Haiti. I mean, I think that--to go to the 
remarks that were given, I can associate myself with all those. 
But, I mean, just the basic things, the basic government, basic 
water, food, housing--I mean, we're committed--this country is 
committed to it, the Senate's committed to it. I want to thank 
you very much for what you're doing. But, we all support this. 
This is absolutely incredible, that this does not--we get to 
use this as an example, as Senator Corker say, as a wake-up 
call to move forward and get some of these very basic needs 
straightened out for Haiti.
    So, I want thank you, again, Mr. Chairman, for holding this 
hearing. Thank the ranking member.
    Senator Casey. Thank you, Senator Kaufman.
    And, of course, we're able to have this hearing because our 
chairman made it a priority, and we're grateful for Senator 
Kerry. And we'll have Senators coming in and out.
    So, Mr. Milligan, why don't you start.

STATEMENT OF T. CHRISTOPHER MILLIGAN, COORDINATOR FOR DISASTER 
 RESPONSE IN HAITI, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Milligan. Mr. Chairman, members of the committee, I am 
honored to join you here today.
    Last Wednesday marked the 4-month anniversary of the 
devastating earthquake in Haiti. The scale of the destruction 
cannot be overstated. Hundreds of thousands lost their lives, 
millions were left without shelter, water, food, and 
electricity.
    Traditional first responders--the Government of Haiti, the 
United Nations, the in-country NGOs--were left, devastated. 
Dozens of U.S. Government employees, including our dedicated 
Foreign Service nationals, suffered their own losses.
    That said, moments of crises can unite people. We saw how 
Haitians came together to pull each other out of the rubble, 
bridging economic and social divides. We have also seen the 
tremendous generosity of the American people. One out of every 
two families in this country contributed to the relief, 
thousands more have volunteered.
    The day after the earthquake, President Obama asked USAID 
Administrator Shah to lead a swift, coordinated, and aggressive 
response. In the days and weeks that followed, USAID leveraged 
talents and resources throughout the Federal Government in a 
synchronized effort.
    Together, the international community launched an 
impressive and unprecedented response that saved lives and 
alleviated suffering. While significant challenges remain, we 
have seen some unparalleled successes. U.S. search and rescue 
teams took part in the most successful international rescue 
effort to date, saving 132 lives. Through the World Food 
Programme, we participated in the largest urban food 
distribution ever, feeding more than 3.5 million people. U.S. 
medical teams treated more than 30,000 patients and performed 
hundreds of surgeries.
    With the international community, we've supported the 
delivery of emergency shelter to earthquake victims at an 
unprecedented rate, providing 1.5 million people with basic 
shelter, and we've helped to vaccinate close to 900,000 people 
against common diseases.
    Our community development programs, on average, are 
employing 24,000 Haitians, getting money directly into the 
pockets of those Haitians who need it most.
    These efforts have had real impacts on the ground. For 
example, people have access to more clean water now than they 
did prior to the earthquake. Therefore, we've seen a reduction 
in diarrhea illnesses by 12 percent from preearthquake levels.
    But, let me be clear, the challenges before us are 
formidable. The road ahead will not be easy. And many of the 
hardships that Haiti faces existed long before the earthquake 
and present even greater challenges now.
    USAID's relief and development expertise was critical in 
coordinating the successful initial humanitarian assistance 
effort, and this expertise will be critical as we move toward 
longer term reconstruction activities.
    We've had some very positive consultations with your 
committee staff on the Haitian Empowerment Assistance and 
Rebuilding Act, and we appreciate the consultative process to 
date.
    The Government of Haiti has, through its Action Plan for 
National Recovery and Development, made great strides in 
identifying its needs and priorities. Supporting this plan will 
require a long-term commitment on the part of the international 
community, the spirit of which is reflected in the proposed 
legislation. We applaud the chairman and Senator Corker for 
their leadership on this issue.
    We agree with the broad objectives laid out in the bill and 
the statement of need in Haiti. The situation on the ground is 
changing daily, and, for that reason, maximum flexibility is 
needed as we address the ongoing crisis.
    As the coordinator for disaster response in Haiti, I want 
to thank Congress for its support, which has saved lives and 
alleviated suffering. Without a doubt, there will be setbacks 
on the way, but I am confident that, with the continued work of 
the international community and the talent of American public 
servants, we can overcome these short-term obstacles and tackle 
bigger ones. With your support, we will do everything we can to 
continue the humanitarian efforts and help the people of Haiti 
build back better.
    Thank you.
    [The prepared statement of Mr. Milligan follows:]

Prepared Statement of T. Christopher Milligan, Coordinator for Disaster 
 Response in Haiti, U.S. Agency for International Development (USAID), 
                             Washington, DC

    Mr. Chairman, members of the committee, I am honored to join you 
here today. I would like to thank you personally for your support of 
the relief and reconstruction efforts in Haiti and for your commitment 
to the Haitian people.
    Last Wednesday marked the 4-month anniversary of the devastating 
earthquake in Haiti. It is hard to overstate the scale of the 
destruction caused on January 12. Hundreds of thousands of people lost 
their lives. Millions of Haitians were left without shelter, water, 
food, or electricity. Traditional first responders, the Government of 
Haiti, United Nations, and NGOs working in-country were left 
devastated. Dozens of U.S. Government employees, including our 
dedicated Foreign Service Nationals in Haiti, suffered their own 
losses. It's a tragedy and a grieving process that continues to this 
day.
    That said, moments of crisis can unite people around a common goal 
and a sense of shared purpose--and we've seen that this is the case in 
Haiti. We saw how Haitians came together to pull people out of the 
rubble in ways that bridged economic and cultural divides. 
Neighborhoods emptied into the streets, and all Haitians shared the 
same fears and common challenges from the catastrophe that struck their 
country.
    We also have seen the tremendous generosity of the American people 
in this tragedy. One out of every two families in the United States has 
contributed to the relief efforts. Many thousands of people have 
volunteered in Haiti to provide medical relief, distribute commodities, 
or to manage a settlement of displaced people. The response of the 
American people demonstrates to the world our true nature and how we 
seek to improve the lives and well-being of others.
    The day after the earthquake, President Obama asked USAID 
Administrator Rajiv Shah to lead a ``swift, coordinated, and 
aggressive'' response. In the days and weeks that followed, USAID 
leveraged talents and resources throughout the Federal Government in a 
synchronized effort--bringing our development experience to bear--to 
support the efforts of the Government of Haiti, the U.N., and the 
international community.
    Together the international community launched an impressive 
response that not only saved lives and alleviated suffering, but also 
helped create renewed international cohesion and momentum upon which to 
rebuild Haiti. While significant challenges still remain, we have seen 
some tremendous successes thus far.

  <bullet> Search and Rescue teams from throughout the United States 
        took part in the most successful international rescue effort in 
        history, with over 40 teams from around the world saving 132 
        people trapped in the rubble.
  <bullet> Through the World Food Programme, we participated in the 
        largest urban food distribution operation ever, feeding more 
        than 3.5 million people.
  <bullet> U.S. Disaster Medical Assistance Teams, deployed 
        internationally for the first time, saw more than 30,000 
        patients and performed hundreds of surgeries. Medical teams 
        aboard the USNS Comfort provided life-saving treatment for 
        hundreds of the most critically injured trauma victims.
  <bullet> We've supported the delivery of emergency shelter to 
        earthquake victims at an unprecedented rate, and, together with 
        the international community, achieved the goal of providing 1.5 
        million people with some form of basic shelter assistance by 
        May 1, 2010, prior to the start of hurricane season.
  <bullet> We've helped vaccinate close to 900,000 adults and children 
        against common diseases in an effort to prevent major outbreaks 
        of illness. A second round of immunizations among IDP will 
        begin in June.
  <bullet> Our community development programs are on average employing 
        more than 24,000 workers every day--not only getting money 
        directly into the pockets of those Haitians who need it most, 
        but most importantly jump-starting the economic recovery 
        through rubble removal, initial reconstruction work, and 
        mitigating against potential weather-related disasters.
  <bullet> Together with the Joint Task Force-Haiti and Navy Seabees 
        who took the lead on ensuring drainage canals were cleared, and 
        life-saving measures were in place before the rains, we've 
        helped to protect 40,000 Haitians who were in imminent danger 
        of losing their lives.
  <bullet> The U.S. private sector, as reported by the Indiana 
        University Center on Philanthropy (as of May 12), raised over 
        $1.3 billion for the U.S. nonprofits surveyed to respond to the 
        earthquake in Haiti. This includes funding that resulted from 
        President Obama's request to Presidents Clinton and Bush to 
        lead a private-sector fund-raising effort.

    These results are impressive, and they reflect the work of 
thousands of individuals from across the Federal Government and around 
the globe. In the area of health, for example, our efforts in providing 
access to water and sanitation, national disease surveillance, post-
quake access to health care, prepositioning of essential medicines, 
vaccination campaigns, and malaria and dengue control efforts 
contributed to the prevention of significant outbreaks. By providing 
chlorine tablets to purify drinking water, we have been able to give 
more people access to clean water than before the earthquake hit. That 
effort has led to real impacts on the ground--already we've seen a 12-
percent reduction in diarrheal illness in Port-au-Prince. That's a 12-
percent reduction from preearthquake levels.
    That said, let me be clear: the challenges before us are 
formidable. The road ahead will not be easy, and many of the hardships 
Haiti faces--endemic poverty, difficulty getting lifesaving medicines 
when needed, lack of meaningful economic opportunities, gaps in the 
government's provision of basic services, maneuvering the cities 
congested streets--existed long before the January 12th earthquake and, 
simply, present even greater challenges now.
    USAID's humanitarian assistance expertise--worldwide and in Haiti--
was crucial in coordinating one of the largest and one of the most 
successful U.S. Government humanitarian responses in history. The 
Agency's development expertise is increasingly critical as we move 
toward longer term reconstruction activities that address these 
hardships and advance the priorities set by the Government of Haiti.
    We will remain committed to working with the people and Government 
of Haiti for the long term. We have closely examined how we can help 
Haiti build back better and how we can help build internal capacity in 
Haiti's Government, civil society, and private sector to allow it to 
better serve its citizens and break free of the poverty that has 
limited its potential for so long.
    In doing so, we will continue to work in close partnership with a 
number of other U.S. Government agencies, especially the Department of 
State, but also the Department of Defense, Centers for Disease Control, 
the Department of Agriculture, and others, and we'll focus on areas and 
sectors where we can add the greatest value:

  <bullet> Promoting economic growth by expanding agriculture and 
        infrastructure, including housing;
  <bullet> Improving security and governance;
  <bullet> Investing in infrastructure and energy;
  <bullet> Supporting sustainable health care.

    The magnitude of the challenge requires an international response, 
so we are working to leverage resources and work with the international 
community to support the strategic decisions made by the Haitian people 
and their Government. Reconstruction will be a shared effort, and the 
U.S. Government will work with the Government of Haiti and the 
international community to ensure that the activities of each donor are 
a reflection of their comparative advantage.
    We are committed to working with the Government of Haiti, the 
private sector, and civil society to develop accountable and 
transparent systems that allow us to track funding every step of the 
way, ensure coordination, and maximize the effectiveness of our 
investments.
    The Interim Haiti Recovery Commission or IHRC, which was recently 
approved by the Haitian legislature, will play a key role in ensuring 
transparency and accountability of donor funds. The IHRC will allow for 
Haitian-led planning, sequencing, and prioritization of projects--for 
example, it will help ensure that a hospital is not built without a 
road that can reach it. It will also provide greater efficiency in the 
reconstruction phase as donors coordinate and harmonize their 
investments with Haiti's plan, identifying gaps and limiting 
duplication of effort. The IHRC will manage a publicly available ``aid 
platform'' database, which will serve as a central location for 
information on the allocation and management of resources and funding. 
This allows for increased transparency and accountability in the 
utilization of resources.
    USAID and the Department of State are committed to engaging the 
Haitian diaspora in our reconstruction and development programming. The 
diaspora is a tremendous resource, not only in the close to $2 billion 
they provide annually in remittances--amounting to approximately 30 
percent of Haiti's GDP--but also in their language skills, cultural 
understanding, and diverse technical skills. The reconstruction and 
development of Haiti must ultimately be led and sustained by the people 
of Haiti if it is to be successful, and that requires nurturing local 
capacity. The diaspora can work side by side with the Haitian community 
to develop the skills needed to truly build back better.
    We are integrating the lessons we've learned from 30 years of work 
in Haiti and 50 in development internationally to respond quickly and 
effectively to the most critical needs, while planning for longer term 
reconstruction of the country. We are also applying a very critical eye 
to what's worked in the past and what hasn't--and focusing our efforts 
only on those activities that will have the greatest impact on 
sustainably improving the lives of Haitians, giving U.S. taxpayers the 
biggest return on their investments in Haiti.
    The overarching principles I've laid out before the committee--
Haitian-led, inclusive, accountable, transparent and coordinated--are 
very much in line with the principles set forth in the Haiti 
Empowerment, Assistance, and Rebuilding Act of 2010. The Government of 
Haiti has, through its Action Plan for National Recovery and 
Development of Haiti, made great strides in identifying its needs and 
priorities. Supporting this plan will require a long-term commitment on 
the part of the international community, the spirit of which is 
reflected in the proposed legislation.
    We have had several very positive conversations with your committee 
staff on the recently introduced legislation, S. 3317 Haiti 
Empowerment, Assistance, and Rebuilding Act of 2010, and appreciate the 
consultative process your staff has engaged in as you drafted your 
legislation.
    We applaud the chairman and Senator Corker for their leadership on 
this issue. We agree with the broad objectives laid out in the bill and 
the statement of need in Haiti. The situation on the ground is changing 
daily, and for that reason, maximum flexibility is needed as we address 
the ongoing crisis in Haiti. For instance, in a year, Haiti could have 
a new government in place. Given the uncertainties that lie ahead, it 
would be our suggestion to provide the administration and those of us 
on the ground greater flexibility and to allow us to work closely with 
you on how to best implement our programs.
    As the Coordinator for Disaster Response in Haiti, I want to thank 
Congress for its support for and involvement in efforts to date. Your 
support, and the support of your constituents, have enabled my 
colleagues throughout the Federal Government and me--in partnership 
with the nonprofit and international communities--to save lives and 
mitigate the suffering of millions in Haiti. Our Agency is committed to 
honoring the trust that Congress and the American people have placed in 
us by making investments in Haiti that are sustainable, scalable, and 
lead to self-sufficiency. The recent congressional passage of the 
bipartisan Haiti Economic Lift Program (HELP) Act will help promote 
such sustainable development by expanding duty-free access to the U.S. 
market for Haitian textile and apparel exports and extending existing 
trade preference programs for Haiti.
    I have worked in development for the last 20 years, including in 
Iraq, Post-Suharto Indonesia, Zimbabwe, Ecuador, and in Vietnamese 
refugee camps in the Philippines. I know that the scale and scope of 
the challenges that confront Haiti are immense. Without a doubt, there 
will be setbacks along the way. But I am confident that with the 
continued work of the international community and the talent of 
American public servants participating in this effort, we can overcome 
these short-term obstacles and substantively tackle bigger ones.
    With your support, we will do everything we can to continue this 
successful humanitarian effort in Haiti while building the foundations 
for meaningful, measureable, and transformative change for its people. 
I truly believe that we have a seminal opportunity to help Haiti build 
back better, and to put it on a path to a much better future.

    Senator Casey. Thank you very much, Mr. Milligan.
    Ambassador Merten.
    What I failed to do at the beginning, which I should always 
do, is, if you can--you were pretty good about time? We want 
try to limit time. All of your statements, by the way, will be 
made part of the record, so if there's something you miss, 
it'll be in the record. If you can try to do it in, maybe, 5 
minutes, that'll be great.
    Ambassador Merten. Do my best.
    Senator Casey. Thank you.

STATEMENT OF HON. KENNETH H. MERTEN, U.S. AMBASSADOR TO HAITI, 
           DEPARTMENT OF STATE, PORT-AU-PRINCE, HAITI

    Ambassador Merten. Mr. Chairman, members of the committee, 
I'm honored to join you here today.
    As you know, Haiti suffered a massive 7.0 earthquake on 
January 12, with an epicenter just southwest of Port-au-Prince. 
An estimated 2 million people lived within the earthquake zone. 
Those 35 seconds changed the face of a nation that was already 
the poorest in our hemisphere. The quake left 230,000 dead, and 
displaced more than 1.2 million, and generated billions of 
dollars of damages in reconstruction costs.
    Assisting Haiti in recovery and rebuilding is a massive 
undertaking that requires a well-coordinated, well-funded, 
Government-of-Haiti-led effort. The outpouring of international 
support has been tremendous. But, it's not only about the 
numbers, it's about the Haitian people and those from around 
the world who have been united in partnering with them.
    On behalf of the Embassy staff, I'd like to convey my 
gratitude to Congress, and especially this committee, for its 
continued concern and unflagging support of Haiti, its people, 
and those of us on tours in the country.
    I have been involved with Haiti on and off for more than 20 
years. This is my third tour there, and I have served as a 
counselor officer, later as chief of the economic section, and 
have worked for the special advisers on Haiti. I have seen, 
firsthand, the progress the nation has made, making it even 
more devastating to witness the destruction of the earthquake--
physical, social, and economic.
    In my 23 years in the Foreign Service, I have never been 
prouder of the work that I am doing and the people with whom I 
serve. In the face of the tragedy, more than a third of us lost 
our homes and all of us have had a family member, friend, or 
colleague die or suffer injury. We came together and worked to 
do all we could for those in need.
    Many Haitians do not refer to the earthquake by name. They 
call it ``bagay la,'' meaning ``the thing.'' They ask each 
other, ``Where were you when 'bagay la' happened?''
    I want to share a couple of examples from Embassy personnel 
on what happened that night.
    After the quake, assistant regional security officer Pete 
Kolshorn, who lived on a ridgeline, immediately left through 
the door of his house and looked for his neighbors, who were 
also Embassy employees. From the neighbor's house, he jumped 
over the ridge and down about two stories and saw an Embassy 
officer buried up to her waist, her face covered with dirt and 
blood, and calling for help. He saw her husband, moving with 
spasms to try and free himself. Beyond him, Kolshorn saw an arm 
protruding from the wreckage. Without a thought for his own 
safety, he threw a hose over the cliff, scaled down shear rock 
to reach the victims, and, with the assistance of one of the 
Embassy's local guard force, began to rescue those three 
colleagues. All three were seriously injured, two with serious 
head wounds. With the help of other neighbors, Kolshorn brought 
all three up the cliff, where there were two doctors.
    That same night, assistant regional security officer Rob 
Little covered Port-au-Prince on motorcycle, visiting every 
employee's residence to check on them, particularly in cases 
where we had not been able to contact them via radio. He helped 
us determine, that night, the whereabouts of our employees, and 
as he did so, in total darkness, with streets thronged with 
homeless people and blocked in many cases, by rocks, trees, 
houses, and bodies.
    These are just two stories of the heroic efforts that 
occurred in the hours and days following the quake. Our 
conference room became an emergency operating room. We 
evacuated over 16,000 American citizens back to the United 
States, including my wife and two daughters. This is one of the 
largest evacuations since World War II. We delivered 
humanitarian aid, food, and water, and seldom slept more than 4 
hours. Many of us slept under our desks, in the hallways, or in 
tents. I slept on a canvas cot in the Embassy for 3 weeks, 
because I could not get back to my house.
    Indeed, it was the funds granted to the Haiti mission by 
Congress that allowed us to build a resilient U.S. Embassy in 
Port-au-Prince, which was completed in 2008. This became a safe 
haven for so many after the quake, and, frankly, helped us 
expedite the rescue effort, I would guess, by about 5 days. Our 
efforts would not have been possible, let alone successful, 
without the support of colleagues across the government and 
around the world. We had more volunteers than we had desks for 
them sleep under.
    The State Department and USAID and countless other agencies 
supported us, as we supported each other, in the most selfless 
of ways. Today, we remain committed to supporting the 
government and people of Haiti as they seek to build back 
better.
    In my confirmation hearing last July, I stated that in the 
aftermath of the tropical storms of 2006 and 2008, Haiti simply 
did not have the resources to rebound from such setbacks. That 
observation is even more true today.
    We have much to be proud of. The United States Government's 
responsiveness to date, and the results that we have achieved 
working with the Government of Haiti and our international 
partners, has been great. Now, however, is a period of 
transition from the most critical humanitarian relief efforts 
to long-term development. The International Donors Conference 
of March 31 sent a clear message: donors and the Government of 
Haiti are committed to working together to make the vision that 
the Government of Haiti presented for its country a reality. 
The Conference raised billions in pledges for Haiti's 
reconstruction. On behalf of the United States, Secretary 
Clinton pledged $1.15 billion over 2 years to help Haiti lay 
the foundation for long-term, sustainable development. In so 
doing, the United States, together with the Government of Haiti 
and other donors, committed to hold itself to the highest 
levels of transparency, and accountability, and to include all 
stakeholders, and give voice to the Haitian people in the 
delivery of that assistance. We will also coordinate efforts to 
avoid duplicative investments.
    I'm glad the legislation that Chairman Kerry and Senator 
Corker proposed echoes this commitment. It demonstrates that 
the United States is committed to supporting and partnering 
with people in the Government of Haiti, as both President Obama 
and Secretary Clinton have said, not just in the months to 
come, but in the years to come. It focuses on long-term 
development goals that align with the needs of the Government 
of Haiti while not forsaking humanitarian relief efforts.
    I'm happy to say that much of what is called for in the 
proposed legislation is happening both on the ground and in 
Washington. Going forward, maximum flexibility is what is 
needed to address the ever-changing and uncertain situation on 
the ground. Our hope is that we can continue to work with you 
and your staffs to provide this flexibility as you develop a 
legislative response to the crisis.
    Learning what took place after the tsunami, the Government 
of Haiti is on its path to create a Haitian development 
authority. To give the Haitians time to stand up this 
authority, the Government of Haiti has empowered an interim 
structure. For 18 months, there will be the Interim Haitian 
Reconstruction Commission, whose mandate is to ensure that 
implementation of the Government of Haiti's plan is 
coordinated, that projects are properly planned and sequenced, 
that efforts are effective, bottlenecks swiftly addressed, and 
that all involved adhere to the highest standards of 
transparency and accountability.
    We're pleased that Congress recently passed the Help Act, 
which extends trade preferences to Haiti that will lead to job-
creating investment there. This is key to Haiti's economic 
development.
    There's much to be done in the coming months. President 
Preval has announced his intent to hold elections, originally 
scheduled for February, before the end of the year. The U.N., 
the OAS, and IFES have completed election assessments, and 
we've begun working with the Government of Haiti and our 
international partners in support of parliamentary and 
Presidential elections expected later in this year.
    As was the case in 2005, the U.N. and others will work on 
the logistics and security around the elections, registering 
citizens and making sure we include those that are displaced.
    Shortly after assuming office, Secretary Clinton called on 
the State Department and USAID to undertake a review of United 
States policy to Haiti. Through an interagency review process, 
consultations with the government, and fellow donors, we 
identified four key sectors for future investment--that will be 
agriculture, energy, security and rule of law, and health--in 
which the United States has comparative advantage in providing 
assistance.
    After the earthquake, we revisited that assessment with the 
Government of Haiti again. The Haitians strongly support deep 
investment in these key sectors; and in pursuing these 
investments, we will adhere to the following set of principles: 
United States assistance to Haiti will be deployed in an 
integrated plan, focusing on specific sectors. United States 
assistance will respond to the Government of Haiti's priorities 
and build the Haitian Government's capacity. United States 
policy and assistance to Haiti will be aligned around common 
development goals and harness the strengths of the entire 
United States Government through a coordinated approach. And 
United States assistance to Haiti will leverage and complement 
the resources of other donors and the private sector. And, 
finally, the U.S. assistance will be subject to rigorous 
monitoring and evaluation. We are confident that these 
investments will help Haiti realize a better tomorrow.
    I will try and wrap this up very quickly.
    Much has been said about the resilience of the Haitian 
people. Indeed, they are incredibly strong people, whose love 
of life, even over the past 4 months, has inspired so many of 
us. Together with the Government of Haiti and international 
partners, we can achieve lasting change and help the Haitian 
people realize sustained development and stability. Years from 
now, when people ask me where I was when ``bagay la'' happened, 
I will recount the story of those 35 seconds, but, more 
importantly, I will recount the many heroic efforts and common 
humanity that followed.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Ambassador Merten follows:]

Prepared Statement of Ambassador Kenneth Merten, U.S. Ambassador to the 
     Republic of Haiti, Department of State, Port-au-Prince, Haiti

    Mr. Chairman, members of the committee, I am honored to join you 
here today.
    Haiti suffered a massive magnitude 7.0 earthquake on January 12, 
2010, with an epicenter just southwest of the capital, Port-au-Prince. 
An estimated 2 million people lived within the zone of heavy to 
moderate damage. The earthquake was the worst in Haiti in the last 200 
years. Thirty-five seconds changed the face of a nation that was 
already the poorest in our hemisphere. The quake left 230,000 dead, 
displaced more than 1.2 million, and according to the Post Disaster 
Needs Assessment led by the World Bank in cooperation with the 
Government of Haiti generated an estimated $11.5 billion in damages and 
reconstruction costs. Assisting Haiti in recovery and rebuilding is a 
massive undertaking and requires a well-coordinated, well-funded, 
Government of Haiti-led effort. The outpouring of international support 
has been tremendous, but this is not only about numbers, it is about 
the Haitian people and those from around the world who have been united 
in partnering with them.
    On behalf of the Embassy staff, I would like to convey my gratitude 
to Congress, and especially this committee, for its continued concern 
for and unflagging support of Haiti, its people, and those of us on 
tours in the country. I have been involved with Haiti on and off for 
more than 20 years. This is my third tour. I have served as a Consular 
Officer, later as Chief of the Economic Section, and as Assistant to 
the Special Advisors on Haiti. I have seen first-hand the progress the 
nation has made, making it even more devastating to witness the 
destruction of the earthquake--physical, social, and economic. In my 23 
years in the Foreign Service, I have never been prouder of the work I 
am doing and the people with whom I serve. In the face of tragedy--more 
than a third of us lost our homes, and all of us have had a family 
member, friend, or colleague die or suffer injury--we came together and 
worked to do all we could for those in need.
    Many Haitians do not refer to the earthquake by name. They call it 
``bagay la'' meaning ``the thing.'' They ask each other where they were 
when ``bagay-la'' happened. I want to share with an example from 
Embassy personnel.
    Deputy Regional Security Officer Pete Kolshorn who lived on a 
ridgeline, immediately leapt through the door of his house and looked 
for his neighbors who were also Embassy staffers. Their house was gone. 
Looking over the ridge, and down about two stories, he saw an Embassy 
officer buried up to her waist, face covered with dirt and blood, 
calling for help. He then saw her husband moving in spasms to try to 
free himself. Beyond him, Kolshorn saw an arm protruding from the 
wreckage. Without a thought for his safety, he threw a hose over the 
cliff, scaled down sheer rock to reach the victims and with the 
assistance of one of the Embassy's Local Guard Force Locally Employed 
Staff members, Renald Jean Belfort. All three were seriously injured--
two with head wounds. With the help of neighbors, Kolshorn brought all 
three up the cliff where there were two doctors. One man needed 
immediate medical care. Carrying two stretchers at a time, then 
returning for the third, Kolshorn worked to get to the main road. This 
effort took 7 hours--having to trek through the most horrific of 
conditions. When he came upon a trapped child, Kolshorn put the 
stretchers down and with the help of a stranger fed the child. If 
someone had told me this story 5 months ago, I would have had 
difficulty believing it. Today it is a reality.
    The same night, Assistant Regional Security Officer Rob Little 
covered Port-au-Prince on motorcycle visiting every American employee's 
residence to check on them, particularly in cases in which we had not 
been able to contact them. He helped us determine that night the 
whereabouts of our employees and he did so in total darkness with 
streets thronged with homeless people and blocked in many cases by 
rocks, trees, houses, and worst of all bodies.
    These are just two stories of the heroic efforts that occurred in 
the hours and days following the earthquake. Our conference room became 
an emergency operating room; we evacuated 16,000 Americans back to the 
United States--including my wife and two daughters--one of the largest 
such evacuations since World War II; we delivered humanitarian aid, 
food, and water; and seldom slept more than 4 hours. Many of us slept 
under our desks, in the hallways or in tents. I slept on a cot in the 
Embassy for 3 weeks, because I could not get back to my house.
    Indeed, it was the funds granted the Haiti Mission by the Congress 
that allowed us to build the resilient U.S. Embassy in Port-au-Prince. 
Our Embassy, which was completed in June 2008, became a safe haven for 
so many in the aftermath of the quake--serving as nerve center, 
shelter, hospital, kitchen, and perhaps most importantly, a place where 
we could all come together and support each other.
    Our efforts would not have been possible let alone successful 
without the support of colleagues across the government and around the 
world. We had more volunteers than desks for them to sleep under; were 
in contact with the USAID and the Department of State here in 
Washington every minute of the day; they and countless other agencies 
supported us as we supported each other in the most selfless of ways.
    Today we remain committed to supporting the Government and people 
of Haiti as they set out to build back better.
    At my confirmation hearing last July, I stated that in the 
aftermath of the tropical storms and hurricanes that caused extensive 
damage from 2006 to 2008, Haiti simply did not have the resources to 
rebound from such set-backs on its own. That observation is even more 
true today.
    We have much to be proud of--the U.S. Government's responsiveness 
to date and the results that we have achieved working with the 
Government of Haiti and international partners have been great as Chris 
Milligan's testimony states. Now is a period of transition--from the 
most critical humanitarian relief efforts to long-term development.
    The International Donors Conference Towards a New Future for Haiti 
that took place on March 31, 2010, sent a clear message: donors and the 
Government of Haiti are committed to working together to make the 
vision the Government presented for its country, reality. The 
conference raised $9.9 billion in pledges for Haiti's reconstruction. 
On behalf of the United States, Secretary Clinton pledged $1.15 billion 
over 2 years to help Haiti lay the foundation for long-term sustainable 
development. In so doing, the United States, together with the 
Government of Haiti and other donors, committed to hold itself to the 
utmost levels of transparency and accountability; to include all 
stakeholders; give greater voice to the Haitian people in the delivery 
of our assistance; and to coordinate efforts and avoid duplicative 
investments.
    I am glad the legislation that Chairman Kerry and Senator Corker 
proposed echoes this commitment. It demonstrates that the United States 
is committed to supporting and partnering with the people and 
Government of Haiti, as both President Obama and Secretary Clinton have 
said, not just in the months to come, but in the years to come. It 
focuses on long-term development goals that align with the needs of the 
Government of Haiti, while not forsaking humanitarian relief efforts. I 
am happy to say that much of what is called for in the proposed 
legislation is happening both on the ground and in Washington. Going 
forward, maximum flexibility is what is needed to address the ever-
changing and uncertain situation on the ground. Our hope is that we can 
continue to work with you and your staffs to provide this necessary 
flexibility as you develop a legislative response to the crisis.
    Learning from what took place after the Southeast Asian Tsunami, 
the Government of Haiti is on the path to create a Haitian Development 
Authority. To give the Government of Haiti time to stand up the 
Authority, the Government has empowered an interim structure. For 18 
months there will be the Interim Haitian Reconstruction Commission, 
whose mandate is to ensure that implementation of the Government of 
Haiti's plan is coordinated, projects are properly planned and 
sequenced, efforts are effective, bottlenecks are be swiftly addressed, 
and all involved adhere to the highest standards of transparency and 
accountability.
    We are also pleased that Congress recently passed the Haiti 
Economic Lift Program (HELP) Act, which extends trade preferences to 
Haiti that will lead to job-creating investment there.
    There is much to be done in the coming months. President Preval has 
announced his intent to hold elections, originally scheduled for 
February, before the end of the year. The United Nations, the 
Organization of American States (OAS), and the International Foundation 
for Electoral Support (IFES) have completed election assessments. We 
have begun working with the Government of Haiti and our international 
partners in support of Parliamentary and Presidential elections 
expected later in 2010. As was the case in 2005, the U.N. through 
MINUSTAH, the OAS, and CARICOM will play vital roles in the logistics 
and security around the elections, registering of citizens--including 
those who are displaced--and monitoring the balloting.
    Shortly after assuming office, Secretary Clinton called on the 
State Department and USAID to undertake a review of U.S. policy on 
Haiti--to evaluate our existing programs and policies, assess the 
alignment of our efforts with the needs of the people and Government of 
Haiti, and determine how we can be most impactful. Through an 
interagency review process, consultations with the Government of Haiti, 
and fellow donors, we identified four key sectors for future U.S. 
investment--agriculture, energy, security/rule of law, and health in 
which the United States has comparative advantage in providing 
assistance. After the earthquake we revisited our assessment, again 
discussing with the Government of Haiti what its greatest needs were 
and what it wanted from the United States, and expanded the scope to 
accommodate new needs in governance and infrastructure. The Government 
of Haiti strongly supports deep investment in these key sectors and in 
pursuing these investments, we will adhere to the following set of 
principles:

  <bullet> U.S. assistance to Haiti will be deployed in an integrated 
        plan, focusing on specific sectors and geographic regions of 
        the country.
  <bullet> U.S. assistance to Haiti will respond to Government of Haiti 
        priorities and build the Haitian Government's capacity toward 
        sustainable and economic growth.
  <bullet> U.S. policy and assistance to Haiti will be aligned around 
        common development goals and harness the strengths of the 
        entire U.S. Government through a coordinated approach.
  <bullet> U.S. assistance to Haiti will leverage and complement the 
        resources of other donors and the private sector.
  <bullet> U.S. assistance to Haiti will be subject to rigorous 
        monitoring and evaluation.

    We are confident that these investments will help Haiti realize a 
better tomorrow.
    Over the course of the past 4 months, I have witnessed the worst 
human suffering and the best in human compassion and support. 
Tragically the Embassy lost several members who continue to be missed 
and in memory of whom we remain committed to our efforts on the ground. 
Among the deceased are: Victoria DeLong, the Cultural Affairs Officer 
at the Embassy who had worked to build bridges of understanding and 
respect. The wife and young children of Andrew Wyllie, a decorated 
State Department officer working with the United Nations. And six 
locally employed staff: Jean-Daniel LaFontant, Olriche Jean, Jacques 
Josue Desamours, Laica Casseus, Joseph Fontal, and Racan Domond.
    Much has been said about the resilience of the Haitian people. 
Indeed, they are incredibly strong people whose love of life, even over 
the past 4 months, has inspired so many of us. Together with the 
Government of Haiti and international partners we can achieve lasting 
change and help the Haitian people realize sustained development and 
stability. Years from now when people ask where I was when ``bagay la'' 
happened, I will recount the story of those 35 seconds, but more 
importantly I will recount the many heroic efforts and common humanity 
that followed.

    Senator Casey. Mr. Ambassador, thank you for your statement 
and your work on this, and the personal connection you bring to 
this. We're grateful for that, and especially at a hearing; we 
often don't have a personal witness in the ways that you've 
described.
    And I wanted to start with the--one of the fundamental 
concerns that we have in the near term--I'll start with Mr. 
Milligan, if you don't mind, with regard to the hurricane. Can 
you give us a sense of what USAID is doing to prepare for the 
hurricane season?
    Mr. Milligan. Thank you. That's an excellent question. And 
it is an activity--it's a concern that we are continuing to 
address.
    We have made progress in preparing for the hurricane 
season, but we still are not there yet; we are still preparing. 
We are consulting with our international partners on their 
plans, and coordinating with them. For example, we're aware of 
the plans of the World Food Programme to preposition supplies 
in 15 to 20 places around the country, in preparation. We have 
worked with the Department of Defense, which has completed 
assessments of hurricane shelters. We're reviewing those 
assessments and see what needs to be done. And we're 
coordinating with the Government of Haiti on its own hurricane 
preparation plan so we know how to be most supportive as part 
of an international community on that.
    We are ensuring that other USG assets are prepositioned in 
response. We're aware of DOD's plans to have emergency response 
capability within a matter of 24 to 48 hours.
    So, this is the current status of our preparation, and is a 
top priority for us.
    Senator Casey. Let me ask you--well, what's the biggest 
challenge, in terms of the preparation? One, do you have enough 
resources? That's one question. Are there enough resources that 
you can bring to bear? But, two, what's your most difficult 
challenge in preparing? Is it infrastructure or is it the fact 
that the Haitian Government may not have the capacity to do 
what they need to do to prepare adequately? What's your--I know 
you're still in the midst of developing it, but what's the 
biggest challenge you face? And do you have the resources you 
need?
    Mr. Milligan. One of our major challenges is assessing the 
impact of the earthquake on the shelters and the prevention 
that we had in place already. As you know, there is an annual 
earthquake--hurricane season in Haiti, and the government 
prepares, on an annual basis, in coordination with 
international partners. What we are currently assessing is the 
impact of the earthquake on the preexisting capabilities. And 
we're getting that information, and it's coming in, and we're 
coordinating it with the government. It's difficult for me to 
judge, at this point, on additional resource requirements, but 
I'm not aware of any, at this time.
    Senator Casey. And if--and then I'll move to the 
Ambassador--but, I think it would help the committee to be able 
to have, maybe in written form, an outline of the hurricane 
preparation.
    Mr. Milligan. Happy to provide that.
    Senator Casey. That would amplify the record. And I want to 
stay within my time, since I was imposing that on others.
    Mr. Ambassador, one of the real concerns that I think a lot 
of people have is--we know how events like this are covered; 
there's a lot of coverage at the beginning, that begins to 
diminish, and I'm not sure the American people have a real 
sense of what's happened, here, what kind of aid we've 
provided, what the nature of that is, but also, and right now, 
I think, more importantly, what's going to happen, going 
forward. When they hear numbers like $15 billion being 
committed, and they hear about conferences, that's very 
positive, but I think what most people out there are concerned 
about is, Where are we with the deployment of those dollars? 
And, in particular, if you can highlight, or Mr. Milligan can, 
What's the current state of affairs as it relates to something 
as fundamental as just basic health care on the ground? If you 
can walk through that. I know we only have about 3 minutes, and 
I'll move to Senator Corker, and I can come back to it. But, as 
best you can in a short time.
    Ambassador Merten. OK, very briefly, thank you.
    I think one of the things that we look forward to, to 
working with our Haitian and international partners on, is, as 
the Haitians stand up the IHRC, this will monitor and provide 
transparency to the public and to those who are interested in 
the actual disbursement of moneys, not only that the United 
States has contributed, but others. In fact, the Web site is 
already up and running, and we can provide that to you 
separately, if members of the committee and staff are 
interested. I think this is a major step forward, which will, 
in effect, sort of hold people's feet to the fire, to allow it 
to be public, you know, who has pledged what, and where they 
are, in terms of those pledges.
    You know, I think we will be working very closely on that 
committee to ensure that things move quickly, that the 
reconstruction process moves as quickly as, certainly, we want 
it to do. I think--I know that the Haitians--I know President 
Preval has told me that he is eager to see things develop as 
quickly as possible. So, I think this will be a useful tool for 
us to: a, monitor; but, b, sort of push through the speed with 
which this happens.
    Senator Casey. In the 2 minutes that I have in my question 
period, can either of you provide an overview or a quick 
assessment just on health care delivery on the ground?
    Mr. Milligan. Senator, there has been no significant 
widespread infectious disease outbreak in Haiti, despite the 
severity of the earthquake, displacement of people, and the 
initial disruptions of the health care system. The rapid 
response within the health sector, which included efforts in 
water and sanitation, national vaccination campaigns, national 
surveillance, and vector-borne disease control have likely 
contributed to this.
    We have had two isolated cases of diphtheria, including a 
young man who passed away after receiving treatment. Despite 
this tragic outcome, diphtheria is endemic to Haiti, and these 
two cases are not indicative of an epidemic. There is 
sufficient antitoxin in-country to treat 25 to 100 cases, and 
CDC is ready to assist with additional doses, if necessary.
    But, Senator, as you know, the status of the health care 
system in Haiti was challenged before the earthquake, one of 
our key requests in the supplemental is health care funding, 
because we need to help rebuild the public health care 
infrastructure. Traditionally, the funding for health care 
bypassed the government and is not sustainable. We need to help 
rebuild the public health care system. We also need to continue 
to provide health care services for the displaced persons. And 
through our supplemental, we're requesting funds for long-term 
rehabilitations for victims of the earthquake.
    Senator Casey. Thank you. I'm out of time.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. And thank you for 
your testimony.
    I think--you look at the many efforts that Americans have 
been involved in, in Haiti for years--I mean, at the end of the 
day, just to call it like it is, people, generally speaking, 
try to figure out a way to work around the government to 
accomplish things there, because they care about the people. I 
have generally good feelings, personally, about President 
Preval, and--I think he's a nice man. At the end of the day, 
though, the government has been incredibly ineffective, even in 
good times, in administering the country in such a way that the 
Haitian people can flourish.
    So, right now, in the middle of this tragedy that's 
occurred, who's in charge down there, and who--you know, like, 
who is the person that is in charge, ultimately--I know there's 
all kinds of organizations involved--the U.N., USAID, State--
who's in charge? You know, if--I know it cannot be the 
President, so who is in charge of what's happening in Haiti?
    Ambassador Merten. I would disagree with you and say that 
President Preval is in charge. He is the leader of the Haitian 
Government. He's democratically elected. He is making 
decisions. I will say----
    Senator Corker. He's making reconstruction decisions and 
he's----
    Ambassador Merten. He will become----
    Senator Corker [continuing]. Deciding where the resources 
go?
    Ambassador Merten. His Prime Minister, Prime Minister 
Bellerive, will be chairing the IHRC with former President Bill 
Clinton. And I think that that the Commission will--our belief 
is that that will prove effective in expediting the 
decisionmaking process and moving things forward with speed, 
that I think we both agree is----
    Senator Corker. Well, today if somebody had a major issue 
they wanted dealt with, they'd call--we'd pick up the phone and 
call President Preval, and he would make that decision, on the 
spot. Interesting.
    Ambassador Merten. I mean, I--he is still the 
democratically elected President----
    Senator Corker. I understand that----
    Ambassador Merten [continuing]. Of the country. He has the 
authority, and, you know, we have found him to be responsive to 
our concerns and to our requests. You know, we don't always 
find ourselves in agreement with him, obviously, but, in broad 
terms, he has been responsive to us.
    I think it's worth recalling that his government--and I 
would completely agree with you--was inefficient, perhaps we 
should say, at--before the earthquake. I think the Haitians--
most Haitians, speaking honestly with you, would agree with 
that. Our strategy is to work with the Haitian government and 
build them up so that they, over time, have increased capacity, 
so don't have problems, in terms of getting decisions out of 
them. And so, they do have the experience----
    Senator Corker. OK, so there's a need to--and I'm not--
look, I mean,--and I appreciate so much what you guys are 
saying, and I appreciate what you do--but we're going, in the 
process of all this need, where 3 million people are affected 
and people don't have homes, as Senator Casey has mentioned, 
hurricane season is coming, there's all kind of health care 
needs--today, the man that's on the ground and making things 
happen, the sheriff, if you will, is President Preval. Is that 
what you're telling me?
    Ambassador Merten. Again, he is the leader of the country, 
he has got a lot of support from the international community, 
me, you know, the American Development Bank, Canada, EU, 
France. We meet with him regularly. You know, we work with the 
Haitian Government, not just President Preval, the Prime 
Minister, who is also a decisionmaker in the process. Again, 
they are doing their job and making their decisions, as needed.
    Senator Corker. And who's our day-to-day leader down there, 
as far as coordinating all of the reconstruction efforts and 
other types of activities?
    Ambassador Merten. Well, we have our AID mission director. 
We also have Chris, who's down there. We participate in the 
U.N. coordination system, called the ``cluster system,'' which 
is broken down into various substantive areas, to coordinate 
our efforts. I think that works reasonably well. I don't know 
if Chris has anything he wants to add to that, or not.
    Senator Corker. Term ``cluster'' creates a little bit of a 
concern, I might add.
    So, who's developing----
    [Laughter.]
    Senator Corker [continuing]. Who's developing, if you will, 
the--I know that Senator Bingaman and I, when I first got here, 
began looking at some of the things that were being done by 
various communities to help there be a vision in Haiti, to help 
move it along. And, you know, it was, some ways, like pushing 
rope, as you can imagine. And I think when you talk about 
building up the government there, that some degree of that 
still exists. So, who's developing the--if you will, the--sort 
of, the vision of what Haiti's going to be over time? That's 
almost a word bigger than necessary today, with all the 
immediate needs, but who's doing that?
    Ambassador Merten. Well, again, our strategy is a country-
led strategy. The Haitians have certainly, in the post-
earthquake period, through the needs assessment, dictated what 
they believe is their priorities and what they view is the 
roadmap ahead. Again, we work with them, and with our 
international partners, to coordinate our efforts to help them 
get there. They clearly don't have the ability to do it on 
their own. And this is, of course, where we come in. I hate to 
keep going back to the same thing, but our view is that the 
IHRC will be a very useful tool in coordinating this effort, 
focusing the Haitians and our partners on the needs as 
discussed earlier in that document, and keeping us--keeping our 
eye ahead on that roadmap.
    Senator Corker. So, our role--explain to me and those on 
the committee--so, if the President there is in charge, and the 
international community is working together to make things 
happen on the ground, what is our role in that, exactly? I 
mean, are we the de facto moral leaders there? Are we just one 
of a group of people? I mean, be realistic about what our role 
is there. And I would expect that it's a very strong role, and 
certainly, I know, individuals like you are very committed, but 
tell us the reality of what our role is in relation to everyone 
else.
    Ambassador Merten. I'd like to--I would agree with you, we 
have a very strong role in Haiti. We are close, we have deep 
relationships with Haiti. I think our relationships with--at 
all levels of the Haitian Government are good. I think we do 
play a very key role. At the end of the day, we're talking 
about a sovereign country, however, which has a democratically 
elected President with whom we deal. You know, our goal is to 
work with them with a sense of partnership, to support them 
where they need it. And, you know, they have asked us, on 
various occasions, for help, and we--as you've seen over the 
past 4 months, we've been providing it.
    I think that partnership respect and responsibility would 
characterize, in three words, I guess, our relationship with 
the Government of Haiti.
    Senator Corker. So, my time is up, and I think you get the 
gist of my concerns. Look, so there's this tension, and 
millions of people that Americans have identified with and care 
about. And so, you have this tension of people wanting to 
ensure that they have those needs that they have, that are 
huge, that are met. And, at the same time, we have an 
incredibly ineffective government, and an international 
community that is working together to get things done. And so, 
I know that many of us on the committee have said, ``You know, 
should we do something?''--because we care about the people 
there more than we care about other government, ``Should we do 
something more draconian?'' And I know that it is a sovereign 
country, kinda-sorta. It wouldn't exist without the 
international community. And I understand we have to have 
respect for that. But, I just think there's a tension there, 
and I don't think we've fully addressed that. I think we're, 
you know, working around that issue. And, in the interim, I 
think a lot of people are suffering as we try to pay tribute to 
a government that has been very ineffective. And I'm not saying 
any of us could have been any better, with the infrastructure 
there. But, I hope that we will--
I hope we will not play games with that. I think we all care 
about folks there. And I guess I'll stop, but I get the sense 
we kind of are. I get the sense that we're not addressing the 
reality of the situation on the ground, because we want to 
allow a sovereign government to exist, and respect that, as we 
do--we respect the rule of law, we respect democracies--but, at 
the same time, as we respect that, it's my sense a lot of 
people are suffering. I don't know what the answer is, but guys 
like you that are on the ground will, hopefully, help us with 
that.
    Ambassador Merten. Senator, I completely understand your 
concerns, and I share many of them, myself. You know, you have 
my commitment that we will do our very best to make sure we 
reach out and do the best we can for those people that are 
suffering, and that we will press the Government of Haiti to 
make the decisions that are necessary to make sure that can 
happen.
    Senator Casey. Thank you, Senator Corker.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, for calling 
this hearing.
    Thank you very much for being here to talk to us about your 
work in Haiti.
    I was able to travel down to Haiti with Senator Landrieu 
earlier this year, right around Eastertime, and I got to meet 
with you, Ambassador. And thank you for all your hard work.
    Obviously, we have extraordinary challenges in Haiti. And 
one of the areas of my gravest concern are the children of 
Haiti. One of the concerns that I have is the education level, 
that at least half of the children in Haiti are not being 
educated, and 80 percent of them that are, are paying for 
school in a community that has so little money available to 
provide for their families. Haiti has a 52-percent illiteracy 
rate, and these are some of the grave challenges.
    Now, I understand that the United States is not heading up 
the education pillar, and I understand the need for donor 
coordination, but I'd like to hear from you what role you think 
we can play in the development of a quality public education.
    Ambassador Merten. Senator, thank you for your question. 
When I talk to Haitians, education is one of their top 
priorities. And immediately following the earthquake, we 
contributed $6.2 million for temporary schools, and we are 
currently refurbishing 600 schools in Haiti.
    We will continue to work, through our bilateral USAID 
program, to improve the quality of education. But, as you know, 
we are part of a broader international effort, and our programs 
can't be a mile wide and an inch deep. So, we are working with 
other donors who are taking a lead in the education sector. 
We're aware, for example, that the IADB is proposing to proceed 
with a $2 billion program in education, and we're coordinating 
with them on that. We also coordinate with the French and the 
Canadians in this sector, because they can bring resources to 
bear, as well.
    We work well with UNICEF. UNICEF has just completed an 
assessment of 133 schools that require rubble removal so that 
schools will open. And so, we're coordinating to ensure that 
UNICEF is getting the resources it needs to the broader 
international community, and MINUSTAH and others, to have that 
rubble removed.
    Senator Gillibrand. Since we are charged with the pillar on 
infrastructure, can we use that charge to go in and really 
create--remove the rubble, for example, and create the 
infrastructure for the school system? Because one of the other 
concerns--you know, we also are addressing health--we can use 
these schools as the focal point for community services, so 
when we get the children into the schools, we can use it as a 
delivery mechanism for vaccinations, for health care, for aid, 
for food, anything that families need to receive. If they can 
go to their local school to receive that support and assistance 
and health care, it would be a very good way to create a hub 
system that can be very effective that we could support through 
our responsibilities on infrastructure and health.
    Mr. Milligan. Yes. Rubble removal is one of our top 
priorities in moving forward. As you know, there is enough 
rubble to fill five Louisiana Super Domes, and it's an enormous 
task. We're working with the Government of Haiti and the 
international donors to prioritize which areas of rubble need 
to be removed first, and prioritize residential areas and 
schools, moving forward. And, in fact, that was the good work 
of UNICEF. And we want to support rubble removal in these 
priority areas, because one of the international community's 
goals is to ensure that schools do reopen in September.
    Senator Gillibrand. I'd also like to address the issue of 
orphans. You know, we had reports that there were hundreds of 
thousands of orphans before the earthquake. We documented 
50,000 children in orphanages, placed in orphanages. Obviously, 
that number is greatly expanded, and there are many children 
who do not have parents or relatives that are able to keep them 
at home in a family environment. And all statistics and all 
studies show that it's far better for children to be raised in 
a family environment, as opposed to an institutional 
environment. What is the United States policy with regard to 
the orphanages in Haiti and what we can do for the children who 
are orphaned in Haiti today?
    Ambassador Merten. Just to look back on what we've done 
since the earthquake, first, to respond to that, we--I was 
personally involved with expediting the release of--and travel 
of--1,000--just shy of 1,000 orphans from Haiti prior to the 
earthquake in these last 4 months. That is in comparison to 
roughly 300 per year, who we typically help come to the United 
States. It is, as you understand, a sensitive issue, both here 
and in Haiti. Our concern, obviously, is to protect the 
adoptive parents, but also protect the children, and to make 
sure that there are legitimate and, indeed, true orphans that 
are coming here.
    There is legislation in Haiti which is--which has been 
passed by the lower House of Congress. It still needs Senate 
approval. Unfortunately, we do not have a seated Senate right 
now. We probably will early in the next year. And you have our 
commitment that we will work with the Senate to push for their 
passage of that bill. Once that bill is passed, it contains 
certain provisions, at least in its current form, that would 
facilitate and expedite the adoption process.
    Senator Gillibrand. Within--I mean, I want to address the 
processes and protections within Haiti----
    Ambassador Merten. Right.
    Senator Gillibrand [continuing]. For--you know, for 
adoptions within Haiti. Foster care--is there any discussion of 
increasing foster care or guardianship programs in Haiti? And 
then, separately, after we discuss that, I'd like to discuss 
international adoptions. But, I'd like to----
    Mr. Milligan. OK. Yes.
    Senator Gillibrand [continuing]. At least address 
separately, What does the Haitian Government intend to do? Is 
there any movement toward improving the quality of care that we 
can offer children through families, if possible, in Haiti?
    Mr. Milligan. Senator, the status of orphans and vulnerable 
children is a major concern for us, particularly given the 
disaster. USAID immediately provided--I'm sorry--the U.S. 
Government immediately provided about $10 million to support 
orphans and vulnerable children.
    The Agency for International Development, through its 
Office of Foreign Disaster Assistance, launched programs on 
emergency child protection, helping to register vulnerable 
children, and trace them, providing safe spaces for children, 
support for caregivers, and activities to reduce the potential 
of trafficking in persons.
    We've also supported public education programs and alert 
systems and emergency phone numbers.
    I understand the Department of State, G-TIP, has 
immediately launched programs to reduce the possibility of 
trafficking in persons, as well, and the Department of State's 
Bureau of PRM is considering more support to UNICEF in order to 
address trafficking in persons.
    We do have, as part of our supplemental request, $11.5 
million to look at the longer term issues, and they are 
consistent with your priorities, to look at more community-
based relationships, and supporting that capability within 
Haiti.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Gillibrand.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you for 
holding the hearing today.
    I apologize if you've already covered some of this ground 
in the time that I was not here, but, in responding to the 
earthquake, the Department of Defense sent in a number of 
resources. Are those resources now being transferred to USAID 
and State, or what's happening with those? And how well is--if 
they are being transferred, how well is that transfer 
proceeding?
    Mr. Milligan. Perhaps I could begin on this one.
    First of all, our military colleagues did an outstanding 
job in Haiti. And I have worked in--20 years in development and 
2 years in Iraq. We had excellent coordination in Iraq, but I 
have never seen the level of civilian/military cooperation as I 
have seen----
    Senator Shaheen. Great.
    Mr. Milligan [continuing]. In Haiti. And not only with 
their U.S. Government counterparts, but with the NGO community 
and international organizations. They were essential for the 
initial successes of the humanitarian assistance effort.
    We coordinate, with the Department of Defense, any of their 
excess property. And so, we have facilitated delivery of excess 
property to the Government of Haiti and also to local NGOs. 
It's a very smooth process, and it's one that we're happy to 
do, because it provides more assistance to those who need it 
most.
    We also have been coordinating with the Department of 
Defense on the location of their ongoing bilateral programs in 
Gonaives and other parts of the country, so there's a 
coordination between the development people, ourselves, and the 
Department of Defense on how best to use these assets, and 
where to place them. And again, I have to emphasize, it has 
been exceptional, the level of coordination out there.
    Senator Shaheen. That's great. And so, you said you're 
coordinating how best to use the assets. Is DOD still there now 
with those resources, or has that transfer been accomplished?
    Mr. Milligan. DOD has a Joint Task Force Haiti that 
deployed immediately following the earthquake. It will be 
transitioning, on June 1, to a very robust DOD program that's 
focusing on the middle-term priorities, such as reconstruction 
of some schools, and preparations for the hurricanes, and those 
activities. So, again, the Joint Task Force now, I believe, is 
about 800 individuals, standing down on June 1. But, in the 
meantime, the other DOD activities have been ramping up. I 
suspect they will have about 500 people on the ground in Haiti 
in a matter of a few weeks.
    Ambassador Merten. If I could just add to that.
    Senator Shaheen. Sure.
    Ambassador Merten. They will have around 500 members, I 
believe, of the Louisiana National Guard up in Gonaives, which 
is the region of the country most susceptible to flooding and 
damage from hurricanes. They will also be conducting a very 
robust series of what they call ``medical readiness 
exercises,'' not just in the earthquake area, but around the 
country, which will provide medical care to people not 
typically touched by the established medical system, 
particularly in rural areas, which--where people's medical care 
is, understandably, you know, the worst in the country. So, 
that will be ongoing for the coming months.
    Senator Shaheen. Great. At the March 31 International 
Donors Conference, the Haitian Government came in with a 10-
year recovery plan, as I understand, and the plan cost $11\1/2\ 
billion, and the Haitian administration sought about $4 billion 
for first 18 months. And I think everybody should be proud of 
the response from the international community. The donors 
pledged nearly $10 billion, and $5.4 billion for the first 18 
months. Is this aid coming in? Is there evidence that this is 
coming in? And how is this getting channeled? Is it going 
through the infrastructure that was developed in response to 
the earthquake? And who's in charge of executing the funds? And 
how is the Haitian Government involved?
    So, I've given you about four questions there, but----
    Mr. Milligan. Well, I applaud the Government of Haiti's 
efforts to lead a successful Donors Conference, and we're very 
glad that the pledges were made. And we will be pressing upon 
donors to honor their pledges.
    Some of the ways forward include the development of a 
Multidonor Trust Fund. These have been very effective in other 
cases. We have been negotiating--if you were--consulting, if 
you will--with international partners and the World Bank. The 
World Bank will chair the Multidonor Trust Fund. We have 
agreement on one standard agreement that all donors will use so 
that we have a unity of effort with the trust fund.
    Donors will have to make a pledge of a significant amount 
in order to be voting members on that trust fund. At the same 
time, we are very supportive of the Interim Haiti 
Reconstruction Commission that was established by decree 
recently. This will play a very effective role in, not only 
laying out strategic vision that is government-led, but also in 
assuring accountable and transparent use of funding, and 
providing more information to the people of Haiti about where 
the funds are going, and why they're going there.
    At the same time, it'll avoid duplication of effort among 
donors. So, this is something that, from a development point of 
view, we strongly support.
    Senator Shaheen. So, is the Donors Trust Fund--has everyone 
agreed to set that up already, or do we--are we still waiting 
for agreement from certain partners?
    Mr. Milligan. The--we have broad agreement on the 
establishment of a Multidonors Trust Fund. And I understand 
that the Brazilians have already made a financial commitment to 
that trust fund. I believe that it's $55 million, but I could 
clarify that, for the record.
    Senator Shaheen. So, there has been agreement from the 
donor community to do this, and everybody's signed on, and it's 
going forward?
    Mr. Milligan. Yes.
    Senator Shaheen. Good.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Shaheen.
    I know we're coming to the end of the panel--we want to be 
cognizant of the time--but, I wanted to go back, Mr. Milligan, 
to a question about the hurricane season. What can you tell us 
about the international community's efforts to have a storm 
tracking system put in place, or a better system that's been in 
place to date? Is there any information you can provide on 
that?
    Mr. Milligan. Sir, I'd like to provide you with a fuller 
explanation of that, but I'd like to provide a response for the 
record, if you will. I don't have that information available 
now.
    Senator Casey. OK. I think that's critically important. 
When we see the devastating effect of the hurricanes--that the 
hurricane season can have, I think it's important that we know 
that. And I'd appreciate a prompt response to that.
    I guess, I wanted to come back to the question of health 
care delivery on the ground, and also food security. And again, 
on both of these, there may be more information to provide for 
the record. But, either of--either of you, Mr. Milligan or the 
Ambassador--what can you tell us about those two issues? Maybe 
starting with food security. What's the current state of 
affairs?
    Mr. Milligan. With respect to food security, there has been 
no increase in malnutrition rates following the earthquake, 
largely, in part, due to the enormous emergency food 
distribution, feeding 3.5 million people. But, we know that 
there is a link between the emergency food and the 
sustainability of the agricultural sector. In order to be 
prepared to address that important transition issue, we 
mobilized a team of experts from Worldwide USAID to come and 
examine how best to transition from an emergency response in 
the food sector, to sustain agricultural programs.
    What we have done in the meantime is that we worked hard to 
provide a lot of inputs to farmers, ahead of the rainy season, 
to ensure a productive harvest. We didn't want the Haitian 
people to lose a harvest because of the earthquake. We--as you 
know, the domestic production of food is essential to food 
security. We, as an agency--USAID--have contributed more than 
$110 million in food assistance following the earthquake. And 
agriculture is one our four deep investments that we propose to 
follow in the supplemental. And we propose to do it in three 
ways. First, one, jump-starting the rural economy by ensuring 
that farmers have the right inputs, that they have--prepared 
irrigation canals, and that they can move forward with the 
planting and harvesting.
    Second, we want to link the farmer more into the 
marketplace to ensure that he or she gets the benefits of their 
products by looking at the value chain, providing post-harvest 
facilities that will ensure that their crops do get to market, 
and also looking holistically--for example, the road system, 
how it fits in, so that we have a comprehensive approach to 
agriculture.
    And, finally, our approach will emphasize the capacity of 
the agricultural sector, looking where research would be 
helpful and how we can build the capacity for research, the 
capacity for innovation, and the capacity for the Haitians to 
carry this forward.
    Senator Casey. Mr. Ambassador, a number of us have raised 
questions about--Senator Corker asked you a number of questions 
about the Haitian Government and their ability to provide, not 
just leadership, but results for the people in this terribly 
difficult period in their history.
    I guess--what can you tell us about, or what's your--what's 
your sense of, or--and in addition to, what's your vision for--
this--the ability of this government to improve day-to-day 
governance in the delivery of services in conjunction with, and 
simultaneously with, the reconstruction efforts? It's a--both 
are difficult, but what's your sense of the--of both governance 
and reconstruction, going forward? Being able to happen 
simultaneously?
    Ambassador Merten. I think it can happen, and I--but, I 
certainly don't want to overpromise. I mean, I think it's going 
to be a long-term effort that we need to work at, in a 
sustained way, in working with the Haitian Government and 
developing strategies which can bolster their capacity to 
function as a government, to provide the services, to respond 
to the needs of the people who elected them. And this is not 
something that's going to happen overnight. But, our view is, 
over the past 20 years of working around the Haitian 
Government, and viewing them, in many cases, correctly, as an 
obstacle, I think we've realized that we need to sort of engage 
with the government to make sure that they have the capacity to 
provide the services that, in many cases, are being provided by 
some NGOs or by international donors. And our strategy is to 
work with our colleagues and with the Haitian Government to 
allow them to get to a point where they can do that. It's not 
going to happen overnight, however.
    Senator Casey. I'll wrap up my time. I'd just say, by way 
of summary, we--by my count, the Congress has taken four big 
actions, at least: debt cancellation, the economic lift 
program; No. 3, the $2.8 billion in the supplemental; and also, 
Senator Kerry and Senator Corker's bill, the Empowerment 
Assistance and Renewal Act. That's wonderful. We're happy about 
that. But, you need to keep telling us what we've got to do to 
be more effective here. I hope you're not ever reluctant to do 
that. Because hearings are great, and focus and attention is 
great, but it's going to be, in the end, action and results 
that we can measure. We can go to the American people and say, 
``We passed this bill, we took this action, and here's the 
result.'' We--there's just not enough of that right now, not 
only on this terribly difficult problem, but on a lot of 
things.
    I know that--Senator Corker--and I'm going go to Senator 
Kaufman, as well.
    Senator Corker. Yes, I know we have another panel of 
witnesses, and we know how to get you guys on the phone. We 
thank you for your service. And out of respect for the next 
panel, I'm not going to ask any more questions. But, thank you.
    Senator Casey. Senator Kaufman.
    Senator Kaufman. Yes, thank you, Mr. Chairman.
    And I--and most of the questions I was going to ask have 
been asked. But, Mr. Milligan, I'd want to kind of zero in for 
just a few minutes on clean water. What's the situation in 
Haiti with clean water?
    Mr. Milligan. I'm sorry, sir?
    Senator Kaufman. Clean water. Providing water for the folks 
in Haiti.
    Mr. Milligan. Oh, sure, yes. During the emergency response, 
clean water has been a key focus for us, because--not only 
because it's necessary to sustain life, but also it's key to 
sanitation.
    The--during the initial response efforts, we have seen 
about a 50-percent increase in the production of clean water. 
We mobilized a chlorination system quickly that enabled 
increased access to clean water. So, a greater number of 
Haitians have access to this clean water than before the 
earthquake.
    One of the things that we're aware of is, as we transition, 
we have to ensure the sustainability and the viability of the 
water providers. And so, as of last Sunday, water is no longer 
subsidized outside of the IDP settlements. Inside the IDP 
settlements, water is still arriving via tanker truck to 
bladders, because that's necessary to maintain sanitation 
levels in----
    Senator Kaufman. How--what's the big problem, do you think, 
going forward? Is it money or is it technology or----
    Mr. Milligan. With water, sir?
    Senator Kaufman. Yes.
    Mr. Milligan. It's--I think that there are several things. 
It's capacity. We have had--there was--prior to the earthquake, 
there was a reorganization of the water sector. I think the 
NEPA, which is the provider of water, is doing, actually, an 
outstanding job, given the challenges, because they're 
responsible for the entire water and sanitation sector. They've 
done a very good job. We need--they need continued capacity 
support and building. There's the basic question of overall 
water infrastructure. As you know, prior to the earthquake, 
there are very few people who were part of that network. And 
so, continued work on that.
    One of the things we want to do is to--through the use of 
supplemental funds--is to ensure a focus outside of Port-au-
Prince, in growth polls, to target the capacity of local 
government so local government can plan better and how to 
provide services. And I'm sure that one of the services they're 
going to want to plan better on is provision of water.
    Senator Kaufman. Great. I want to know--anything we can do 
to help on this as we go forward, please, let us know.
    Mr. Milligan. OK. Will do.
    Senator Kaufman. Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Kaufman.
    Mr. Milligan, we want to thank you for your testimony. Mr. 
Ambassador, for your testimony. We'll thank you in advance for 
the written testimony you'll submit. And we're grateful for 
your service to the country and the work you've done in Haiti 
already. Thank you very much.
    We'll move to our second panel. It's--this is, as well, an 
esteemed panel of nongovernment witnesses.
    Our first witness is the Honorable Andrew Natsios, 
distinguished professor at Georgetown University's Foreign 
Service--School of Foreign Service, and a former USAID 
Administrator. Our second panelist is Sean Penn, the founder of 
J/P Haiti Relief. That organization located in San Francisco. 
And then, finally, Mark Schneider, senior vice president, 
International Crisis Group, Washington, DC.
    And I'd like to thank each of our witnesses again for being 
here, for providing not only your testimony, but, in all cases, 
your work literally on the ground in Haiti and your commitment 
to getting the strategy right, in terms of what we do, going 
forward.
    I'd ask the witnesses, because your testimony will be 
submitted for the record, to try to keep your testimony within 
that 5-to-7 time range, if that's at all possible.
    We'll start from the right of the table, going right to 
left. Mr. Natsios, we'll begin with your testimony. And the 
floor is yours.
    Thank you very much.

 STATEMENT OF HON. ANDREW S. NATSIOS, DISTINGUISHED PROFESSOR, 
 SCHOOL OF FOREIGN SERVICE, GEORGETOWN UNIVERSITY, WASHINGTON, 
                               DC

    Ambassador Natsios. Thank you very much, Senator. I want to 
thank the committee for inviting me to speak today.
    I would, first, like to compliment the United Nations 
agencies, particularly UNICEF, the World Food Programme, UNDP, 
and United Nations Office of the Coordinator of Humanitarian 
Assistance, the NGO community, USAID, the U.S. military, and 
the State Department--for an excellent job in a very difficult 
circumstance. There are two things that led to a very difficult 
response; first, that Haiti was a failed state prior to the 
earthquake. Typically, as in Indonesia, for example, during the 
Aceh earthquake we had a highly functional national government 
that helped us with what we had to do, that could make 
decisions and that was competent in getting lots of things 
done. That was not the case before this earthquake in Haiti. 
Second, this natural disaster also happened in the capital 
city, where all the NGOs, the U.N., and all the government 
ministries were located, and there was a massive loss of life 
among the people who would normally manage the response. So, 
Haiti is very atypical. There are 62 disasters a year that 
USAID responds to through its disaster response mechanism. You 
hear about one or two, because they make it onto the news. The 
rest of them, you don't ever hear about, because they're 
actually handled so well, in terms of the nature and content of 
our response, through both Democratic and Republican 
administrations. So, I'm very proud of the agency's work and of 
its disaster response staff. I ran that office, 20 years ago, 
under President George H.W. Bush, as my first job in 
international work.
    But, I want to talk a little bit about, not the relief 
response--if you ask questions, I'd be glad to discuss this 
topic--but more about the condition of the Haitian Government 
because I think the worst thing we can do is be nice about this 
issue and apply a Disney World assessment to what we're dealing 
with.
    We are dealing with one of the worst-governed countries in 
the world, and clearly one of the worst-governed countries in 
Latin America. There was an earthquake in Chile that was 
comparable to that of Haiti; 500 people died in Chile while 
230,000 people died in Haiti. What's the difference? The 
difference is that the Chilean, along with the Costa Rican, 
Government are the two best-run Latin American governments. And 
therefore, if you have an earthquake in a country that's highly 
functional, with a strong government presence, you can help 
them do their work; you don't do it for them.
    For the last 30 or 40 years, we have basically been 
administering public services in Haiti, through NGOs, through 
contractors, through the U.N. agencies, because the Haitian 
state can't do it itself. Eighty-five percent of the children 
in school in Haiti are in private schools; only 15 percent are 
in public schools because the the Ministry of Education is so 
dysfunctional.
    A World Bank study examining Haitian bureaucracy was 
conducted about 5 or 10 years ago, and it showed that 30 
percent of the people working in the bureaucracy are phantom 
employees; they don't exist. They get paid, they're on the 
payroll, but they don't report for work, ever, and most of them 
don't even exist. In one ministry of 10,000 workers, 50 percent 
of the staff were phantom employees.
    Some advocacy groups have been in favor of using money for 
budget support to support this system, which I think is a 
terrible idea. We are basically taking the clientele networks 
that control the Haitian state and putting more money into 
them. The reason the aid community has gone around the Haitian 
state is because it's so dysfunctional.
    I collected a few statistics which I thought would be 
illustrative of the condition of the Haitian state. First, 
Transparency International, a well-respected international NGO 
that does work on corruption, gave Haiti the 10th lowest score 
in the entire world in terms of corruption levels. Its rank 
falls next to those of Equatorial Guinea, Burundi, and Iran.
    Second, there is a very interesting statistic about the 
nature of doing business in Haiti provided by the World Bank in 
its Ease-of-Doing-Business Report. Haiti ranks 151st out of 
183, having the worst business climate in the world, save 30 
other countries. And as a result, legitimate businesses don't 
go there because it's hard to register, you have to pay bribes 
to get your licenses, and so on.
    The reason why the country's so poor is because the 
business climate is so bad. There have to be efforts to reform 
it because, if that is not done, then all other reforms and all 
other aid that we provide will simply not be effective. Unless 
there is a growing private sector, a dynamic economy, and an 
emerging middle class, with a growing private sector economy. 
Haiti will remain a failed state in 5 years unless major 
reforms are undertaken now.
    There are 2 million Haitian Americans. They are upwardly 
mobile, they're hardworking, they're entrepreneurial, but they 
live here and in Canada, not in Haiti. Eighty percent of 
Haitians with college degrees live in Canada and the United 
States, not in Haiti. That is a very disturbing statistic. 
There's a massive drain of skilled people out of the country to 
the United States. And when they get here, they do very well. 
So, it's not the Haitian people; it's the system that is 
profoundly dysfunctional.
    How do we change this? Well, for one, we're going to have 
to try to bring back, in my view, the diaspora to Haiti. We did 
this, by the way, very quietly in Afghanistan. During the first 
few months, we brought back 1,000 Afghans from the diaspora 
living in Europe and the United States--including Ph.D.s and 
major business figures. And, the five best-run ministries in 
Kabul were run by the diaspora people we had brought back. We 
quietly put them on the USAID payroll, not directly, but 
through our contractors, and those people ran what turned out 
to be the best-run ministries.
    I suggest, on a larger scale, something like that be done 
with other donors because, if we just funnel money into the 
existing system, it's not going to improve governance in the 
country. Unless you improve governance and the rule of law, you 
are not going to have a functional Haitian state, and you will 
continue to have what we just had happen. Instead of what we 
saw in Chile, we will witness a recurrence of this terrible 
tragedy at some point in the future with another natural 
disaster.
    I could go through a whole bunch of other indicators, but 
there's one other statistic that's also very relevant and 
should be mentioned here. Haiti is one of the most densely 
populated countries in the world. It ranks 30th in terms of 
land per capita. And the 30 countries that are more densely 
populated are little, tiny countries like Singapore which is 
rich, but it's not a country; it's a city-state. Haiti is more 
densely populated than India. It cannot feed itself, even if it 
had the best agricultural system in the world. We should 
improve the agricultural sector. USAID and other donors are 
proposing with the Haitian Government to decentralize the 
economy away from its concentration in the capital city: this 
is a very good idea. I strongly support it. We need to put more 
of a focus on that. But, unless there's industrialization in 
Haiti, it will continue to be a very poor country.
    Industrialization did take place in Haiti during the 1980s 
and the mid-1990s. There were 400,000 people working in 
factories--assembly plants, basically, for manufacturing soccer 
balls, shoes, clothing and such--and they received a monthly 
wage. They were paying taxes. And, then, there was political 
chaos with Aristide and the military coup, and then the United 
States imposed economic sanctions. These sanctions, along with 
political turmoil and rampant violence, drove the middle class 
out of Haiti to the United States and Canada and the 
manufacturing plants moved to Central America.
    So, unless there's order, and unless we open our markets up 
to Haitian products, they are not going to have a growing 
economy. We should take a holistic approach. We need to have a 
free trade agreement with Haiti so there are no restrictions on 
the importation of Haitian goods to the United States. I don't 
think it's a big threat to our economy to open our markets up 
to one of the poorest countries in the world. Congress did a 
very good thing in 2008 by passing a partial bill. I think we 
need a full bill. We need a full bill to open markets up 
because that will attract the business communities of Canada 
and the United States, possibly using people from the Haitian 
diaspora to begin industrializing the country, not just in 
Port-au-Prince, but in other parts of the country as well. And, 
perhaps, this industrialization can also be attached to 
agriculture because you can have industrialization where you're 
bottling canning and there is food processing. We also need 
rural roads for that.
    One of my concerns regarding the aid budget is that there's 
a lot of money for programs that are visible, quick, and 
appealing. But, no one wants to fund the programs that aren't 
politically appealing. And this is not just in Congress; this 
is the case with the executive branch, too. Thirty-five percent 
of our total foreign aid budget worldwide is for health 
projects. Do you know anybody in favor of disease? I don't know 
any interest group in favor of disease. There are, however, 
lots of people who don't like agricultural programs. I won't go 
through them all; you can guess who they are. But, they usually 
would stop USAID's request for more money from this body for 
agricultural programs. They don't like fertilizer, they don't 
like GMO seed, or they think it's competition for the U.S. 
farmers, which is nonsense. And so, such programs do not get 
funded--until the recent food crisis occurred caused by rising 
food prices.
    The governance and democracy component of of AID 
constitutes only 4 percent of our aid programming, while 35 
percent is dedicated to health. So, the money is not there to 
do the things we need to do because the budgets are earmarked 
based on political pressures, which I understand. I was a 
former State legislator of Massachusetts for 12 years; I 
understand the pressures that Members of Congress are under. 
And, I ran AID for 5 years; I know what you all requested of 
us: the things that help people, personally. If we don't 
improve governance in Haiti, we're not going to be able to have 
the Haitian Government running schools that children go to or 
providing health clinics that can treat people so we don't have 
to keep going in with this huge international apparatus to run 
the country on their behalf.
    So, we need governance reform as a top priority. That is 
what's in the AID budget. I urge Congress to approve, without 
any restrictions, what AID requested in terms of its governance 
and democracy program because, without it, this reconstruction 
effort is simply not going to work.
    And, the second most important thing is economic growth. 
People say, ``We need to just have free trade.'' That is not 
enough. Haiti needs to have improved policies to make it easier 
for people to start businesses, to create jobs, to have 
economic growth. Haiti needs rural roads to stimulate economic 
growth. If there's economic growth, citizens pay taxes, which 
will fund the Haitian Government to operate the way it's 
supposed to operate, not as a failed state.
    So, those are some ideas. I have written testimony with 
many other ideas, but time is short, and I know you want to ask 
questions, Senator.
    [The prepared statement of Ambassador Natsios follows:]

Prepared Statement Andrew S. Natsios, Professor, Georgetown University 
               School of Foreign Service, Washington, DC

    In the wake of the January 12 quake that killed more than 200,000 
people and left over 1 million homeless, an avalanche of humanitarian 
aid poured into the Haiti to save lives and reduce human suffering.\1\ 
Due to its magnitude and proximity to Haiti's lone urban center and 
economic hub, Port-au-Prince, this earthquake has demonstrated the 
extent and scope of vulnerability of the Haitian population, of whom 
over 80 percent were below the poverty line before the earthquake.\2\
---------------------------------------------------------------------------
    \1\ Reuters: http://www.reuters.com/article/idUSTRE61703220100208.
    \2\ CIA World Factbook: https://www.cia.gov/library/publications/
the-world-factbook/fields/2046.
html.
---------------------------------------------------------------------------
    As the immediate crisis stabilizes, the United States must 
transition its assistance programs in Haiti in order to promote broad-
based, long-term economic growth and gradually phase out short-term 
humanitarian aid. In March of this year, the Haitian Government 
unveiled their ``Action Plan for National Recovery and Development of 
Haiti,'' which portrayed this tragic event as ``an opportunity to unite 
Haitians of all classes and origins in a shared project to rebuild the 
country on new foundations.'' \3\ The Government's desire to ``reverse 
the spiral of vulnerability'' created by natural disasters seems to 
focus on the proper target.
---------------------------------------------------------------------------
    \3\ Government of Haiti: http://www.haiticonference.org/
Haiti_Action_Plan_ENG.pdf.
---------------------------------------------------------------------------
    This tragedy was not simply a natural disaster; it was a man-made 
disaster stemming from a failed Haitian state characterized by 
widespread patrimonialism, corruption, and critically ineffective 
service delivery. Despite $5.3 billion in foreign aid invested by 
bilateral and multilateral donors from 1990 to 2005 (approximately $1.5 
billion of which came from the United States), Haiti persists as one of 
the poorest and worst governed countries in the hemisphere, if not the 
world.\4\ Much of this U.S. Government assistance has been humanitarian 
rather than nation-building assistance, and has kept people alive 
through repeated political crisis. The Government of Haiti has been 
characterized as autocratic and unstable. To ensure loyalty within a 
society that has been riddled with gang violence and plagued by abject 
poverty for decades, elites have created patronage networks to employ 
their supporters, provided selective public services to them, all 
funded by rent-seeking and limits on the creation of legitimate 
institutions which might challenge their monopoly control over the 
society.
---------------------------------------------------------------------------
    \4\ National Academy of Public Administration: http://
www.napawash.org/haiti_final.pdf.
---------------------------------------------------------------------------
    In 2009, Transparency International assigned Haiti the 10th lowest 
score in the world on its Corruption Perception Index, next to 
Equatorial Guinea, Burundi, and Iran.\5\ According to an advisor to the 
organization, Roslyn Hees, coauthor of the handbook ``Preventing 
Corruption in Humanitarian Operations,'' Haiti is the perfect storm for 
corruption risk due to ``shattered institutions, an anemic state, a 
history of graft, and the sudden deluge of aid money.'' \6\ Not only 
does this failed state ensure that the majority of Haitians will remain 
poor, but it also limits the potential of aid programs that simply 
provide budgetary support to the Haitian Government. The solution must 
be to focus on improving public policy, establishing the rule of law, 
and improving governance.
---------------------------------------------------------------------------
    \5\ Transparency International: http://www.transparency.org/
policy_research/surveys_indices/cpi/2009/cpi_2009_table.
    \6\ Washington Post: http://www.washingtonpost.com/wp-dyn/content/
article/2010/03/10/AR20100
31003012.html.
---------------------------------------------------------------------------
    Despite the bleak outlook that exists today, Haiti did experience a 
promising period of industrialization in the late 1980s during which 
time a class of regularly paid workers was developing from an emerging 
base of assembly plants. However, with the overthrow of Jean-Bertrand 
Aristide in September 1991, a military regime took control of the 
country; the violence and repression that followed locked the country 
into a self-destructive condition that remains to this day. Even though 
Aristide was brought back to office with international help 3 years 
later in 1994, the hope he had represented largely vanished as he 
brutalized his opponents and drove the emergent working and middle 
class to Canada and the United States.
    Additionally, U.S. and U.N. Security Council Sanctions in the 1990s 
contributed to the end of the hope of industrialization and economic 
growth. These sanctions created a skilled labor shortage as there was 
an exodus of the Haitian educated, middle class to the United States 
and Canada, a trend that continues to this day. In fact, a recent poll 
has indicated that 67 percent of Haitians would emigrate if they could. 
Two million Haitians already live in the United States, of whom 60 
percent are now American-born, and four-fifths of Haiti's college-
educated citizens live outside of the country. A new Haiti must have 
substantial educated middle class as a foundation, or it will fail.
    The weakness of the Haitian state is clearly evident when this 
tragic event is juxtaposed with an equivalent earthquake in Chile in 
February which led to less than 500 casualties and was far less 
consequential in terms of physical destruction. Unlike Haiti, Chile is 
one of the best governed countries in Latin America, has a very 
impressive business community and a vibrant nonprofit sector. In Chile, 
it is apparent that building standards were enforced so buildings did 
not collapse in the earthquake, emergency response teams were 
reasonably well-prepared, and the government demonstrated the capacity 
to help. In Haiti, however, it is very apparent that the situation was 
the opposite.
    In a new book, ``Violence and Social Orders,'' Nobel Prize winning 
economist Douglass North, John Wallis, and Barry Weingast argue that it 
is the density of legitimate institutions that distinguishes rich from 
poor countries. Rich countries have them, and poor countries do not. 
The United States, for example, is probably more densely packed with 
institutions per capita than any society in world history which is one 
of the primary determinants of America's wealth and stability. In fact, 
there is one nonprofit for every 160 people in United States and over 
85,000 units of government serving U.S. citizens. If measurement was 
possible, Haiti would probably have the lowest number of legitimate 
institutions of any country in the Western Hemisphere, and perhaps the 
world.
    A World Bank study of Haitian governance reports noted that ``30 
percent of civil service were phantom employees . . . One ministry had 
10,000 employees, only about half of whom were ever at work.'' A USAID 
evaluation of Haitian Government institutions reported they are 
``characterized by lack of trained personnel; no performance-based 
personnel system, no accepted hiring, firing, and promotion procedures; 
heavy top down management; and a decided lack of direction.'' In a 
word, Haiti was already a failed state before the earthquake took place 
and the poor response after the earthquake was a function of it being a 
failed state.
    International business and capital markets do not invest money in 
failed states, and without such investment, job creation on the scale 
necessary to change the dynamics of Haitian society is impossible. 
Beyond the terrible loss of human life from the earthquake, a much less 
visible, but nevertheless significant devastation was the destruction 
of jobs, businesses, and economic activity. So, Haiti now faces the 
twin economic challenge of mass unemployment from the earthquake and a 
terrible business climate derived from its failed state status. 
According to the World Bank's 2010 ``Ease of Doing Business'' 
Indicators, which provide an objective measure of business regulations 
and their enforcement across 183 economies, Haiti ranked 151st , making 
it very difficult to start a legitimate business.\7\ The Bank's report 
indicates that, while the average cost of starting a business is 4.7 
percent of income per capita in OECD countries and 36.6 percent across 
Latin America, it constitutes 227.9 percent of income per capita in 
Haiti. And, while registering property in OECD and Latin American 
countries takes an average of 25.0 and 70.4 days respectively, it takes 
over a year in Haiti. According to the Bank's ``Protecting Investors--
Transparency of Transactions Index,'' Haiti has scored 2 out of 10, 
significantly below the average score of 4.0 across Latin America.
---------------------------------------------------------------------------
    \7\ World Bank: http://www.doingbusiness.org/ExploreEconomies/
?economyid=85.
---------------------------------------------------------------------------
    These figures demonstrate that, without formal institutions capable 
and able of providing the enforcement mechanisms necessary to decrease 
risk and uncertainty, businesses will not pursue economic opportunities 
and invest in the economy even though this is essential for recovery. 
Thus, any effort to build new institutions must incorporate private 
sector development; it cannot solely target the Haitian state in a 
vacuum.
    Despite the critical importance of these objectives, the challenge 
ahead is daunting, particularly considering the general consensus among 
the international donor community that long-term development programs 
in Haiti have been largely ineffective in the past. A National Academy 
of Public Administration report of 2006 on why foreign aid has failed 
in Haiti summarized general donor opinion which has ``variously 
characterized Haiti as a nightmare, predator, collapsed, failed, 
failing, parasitic, kleptocratic, phantom, virtual or pariah state.'' 
The World Bank is poised to invest another $100 million in Haiti even 
though the Director of its Operations Evaluation Department claimed in 
2002 that ``the outcome of World Bank assistance programs [in Haiti 
from 1986 to 2002 has been] rated unsatisfactory (if not highly so), 
the institutional development impact, negligible, and the 
sustainability of the few benefits that have accrued, unlikely.'' The 
Bank also noted that ``Haiti has dysfunctional budgetary, financial or 
procurement systems, making financial and aid management impossible.'' 
\8\ Even the Government of Haiti, in 1997, admitted that it had a 
serious aid management problem.
---------------------------------------------------------------------------
    \8\ National Academy of Public Administration: http://
www.napawash.org/haiti_final.pdf.
---------------------------------------------------------------------------
    Historical evidence suggests that countries can make significant 
reforms following a catastrophic natural disaster of the scale Haiti 
has just been through. It is important to note that the solidarity and 
optimism expressed in the GOH's ``Action Plan for National Recovery and 
Development of Haiti'' is nothing new. According to Robert Klitgaard in 
his study ``Addressing Corruption in Haiti,'' when Aristide came to 
office in 1991, he promised to ``wash away the old Haiti of Papa Doc 
and Baby Doc Duvalier, the tonton macoutes, the predatory corruption'' 
when in fact he simply replaced one tyranny with another. As recently 
as April 2009, ``Prime Minister Michele Duvivier Pierre-Louis gave an 
impassioned speech to Haiti's aid donors: `I believe that together we 
will seize this opportunity to make a real difference and change 
forever the course of history,' she said. `We strongly believe that 
Haiti is at a turning point, perhaps even a tipping point.' But she 
also acknowledged that Haiti calling for a new beginning can evoke 
derisive laughter. `In Haiti, popular comedians have for the past 50 
years parodied the almost theatrical repeated announcement of a `Great 
Beginning' in which they did not really believe themselves. The time 
has come to break away from such cynicism.' '' \9\ Action Plan itself 
calls for a ``progressive increase in decentralized skills'' and an 
``increase in the role of [local] municipalities in reducing 
vulnerabilities and protecting inhabitants.'' However, such reform will 
remain superficial unless there is true ownership in the Haitian 
Government. The composition of the Action Plan's proposed Interim 
Commission for Haitian Reconstruction has been called into question by 
Transparency International's Senior Consultant Roslyn Hees: ``the 
majority of the commission would be made up of international agencies 
and a minority would be made up of Haitian representatives. Even within 
the Haitian representation, there is no one from civil society, except 
a representative of Haitian unions, who cover a minuscule proportion of 
the Haitian workforce since most of the workforce is informal and not 
unionized.'' \10\ Although it is essential that the Haitian Government 
assume ownership in the agenda-building process, it is critical that 
the United States contributes only to a long-term development plan that 
is both inclusive and transformational.
---------------------------------------------------------------------------
    \9\ Robert Klitgaard, ``Addressing Corruption in Haiti,'' February 
2010: http://www.cgu.edu/PDFFiles/Presidents%20Office/
Addressing%20Systemic%20Corruption%20in%20Haiti%20_3_.pdf.
    \10\ http://talkradionews.com/2010/03/corruption-watchdog-worried-
by-haitian-reconstruction-plan/.
---------------------------------------------------------------------------
    As the United States transitions from short-term humanitarian 
assistance toward the reconstruction of Haiti's shattered capital and 
economy, our aid must alter the power structure within the Haitian 
Government and economy, the open the society up to genuine democratic 
principles and to a free market economy. Too many policymakers in 
Washington too often take reconstruction literally--as bricks and 
mortar alone--when in fact rebuilding needs to address much more than 
that. Clearly, port facilities, roads, bridges, schools, health 
clinics, and water systems (which were already crumbling before the 
earthquake) must be rebuilt. But, if that is the extent of our 
reconstruction efforts, then Haiti will simply revert to its failed 
state status and whatever is reconstructed will begin to crumble over 
time without institutions to ensure maintenance.
    Moreover, U.S. technical assistance to Haiti has proven ineffective 
because the institutions necessary to take advantage of these knowledge 
transfers do not exist. Since 1989, USAID/OFDA has offered an 
``Advanced First Responders Course'' throughout Latin America and the 
Caribbean within its Technical Assistance and Training Program (TATP). 
From June 1998 to May 2003, there have been more than 12,000 first 
responders in the TATP which has certified more than 2,100 active 
instructors. However, no matter how much training is done, functional 
institutions--which Haiti does not have--are needed to use the trained 
people properly.
    Unless the U.S. Government balances physical reconstruction and 
technical assistance with institution-building--a much more difficult, 
time-consuming, less visible, but more essential effort--Haiti will 
remain a failed state. The political pressure from Washington, as it 
has been in other state-building exercises, will be for Haiti 
reconstruction to be fast, visible, and produce measureable results 
when, in fact, building functional institutions will take 10 to 20 
years, its greatest successes will not be dramatic or visible, and many 
will be difficult to quantify or measure. Aid efforts in Haiti in the 
past have focused too much on delivering public services through 
nongovernmental organizations and international organizations instead 
of the trying to reform the Haitian institutions that should be 
delivering these services.
    Thus, first and foremost, Haiti's transformation into a functional 
nation requires a strong emphasis on issues of governance and rule of 
law within our aid programs. The predominant culture and values of a 
society can either facilitate or impede development. The latter is 
certainly the case in terms of Haiti's destructive political culture 
which has been marred by patramonialism, clientelism, and patronage 
networks.
    Lawrence E. Harrison points out in his book, ``The Central Liberal 
Truth,'' that ``Haiti suffers from a complex web of progress-resistant 
cultural influences which spreads the message that life is capricious 
and planning futile. There are high levels of social mistrust. 
Responsibility is often not internalized. Child-rearing practices often 
involve neglect in the early years and harsh retribution when kids hit 
9 or 10.''
    In ``Violence and Social Orders,'' Douglass North describes two 
types of societies: limited-access order and open-access order 
societies. Most of human history has been dominated by the former which 
are ``governed by a dominant elite or coalition that stays on top by 
controlling and distributing patronage and privilege. How you fare, in 
a limited-access order, depends on who you are and whom you know.'' 
Over the past few hundred years, however, open-access orders have 
emerged which ``allow political participation and economic access on 
equal terms according to impersonal rules. Broad, government-enforced 
rights replace selective, government-distributed privileges.'' \11\
---------------------------------------------------------------------------
    \11\ Jonathan Rauch
---------------------------------------------------------------------------
    Using North's terminology, it is critical that there is a 
transformation in Haiti from such a limited-access order to an open-
access order because they are ``more politically stable and 
economically successful than their precursors; in fact, today they 
dominate the world. But developing a culture based on rule of law under 
which dominant elites willingly surrender their monopoly on power can 
take centuries, if it ever happens at all. Only a mature natural 
state--one with durable institutions, a military under firm political 
control, and elites who are acclimated to the rule of law--can make the 
transition to an open order.'' \12\
---------------------------------------------------------------------------
    \12\ Jonathan Rauch
---------------------------------------------------------------------------
    Any effort to build new Haitian institutions will also require 
security, without which the exodus of educated professionals will 
continue. The GOH must develop a trained police force which respects 
human rights, avoids politics, and ensures the security of the Haitian 
people. Criminal gangs linked to the drug trade have grown more 
powerful over the past few years and are behind the growing violence in 
Haitian society. Unless this is trend is arrested, any effort to build 
new institutions will fail. While crime fighting has been entirely the 
province of some 9,000 U.N. peacekeepers since 2004, the Haitian 
Government must develop local police and security forces for sustained 
security with the U.N. providing back up until these institutions are 
functional.
    Of course, institution-building efforts must be coupled with 
progrowth economic policies. The GOH's Action Plan aptly recognizes the 
need to decentralize the country economically and politically away from 
Port-au-Prince through the development of regional economies and the 
subsequent diffusion of job creation. Haiti needs to develop a 
functioning economic system, agricultural export markets, and a rural 
road network. And although Haiti currently enjoys duty-free access to 
U.S. markets for certain Haitian-made apparel items through the Haitian 
Hemispheric Opportunity through Partnership Encouragement Act of 2008, 
a more comprehensive free trade agreement between our countries will 
tie our economy with Haiti's and recreate a market for Haitian products 
which with economic reform can stimulate growth and job creation.\13\ 
The Haitian private sector will be much more likely to accept reform 
than the public sector, and thus can be an engine for progress.
---------------------------------------------------------------------------
    \13\ USAID Summary: http://pdf.usaid.gov/pdf_docs/PDACN939.pdf.
---------------------------------------------------------------------------
    We must also encourage the participation of the prosperous, 
educated Haitian-diaspora in the United States and Canadian because 
they have the potential to be major assets in the reconstruction of the 
country. As Haiti is only 600 miles from the U.S. mainland, such 
individuals would be able to come and go with relative ease. Such 
efforts should be accompanied by a program that enables Haitians to 
come to the United States to attain education. The most successful 
institution-building program used by USAID historically was its 
scholarship programs which brought 18,000 students a year to U.S. 
colleges and universities to get their graduate degrees. The USAID 
scholarship programs have been phased out over time because Washington 
regulators demanded immediate and visible results which scholarships 
could not produce. But they can produce transformational long-term 
change because graduates usually return to their home countries from 
their U.S. experience as reformers. Bringing promising Haitians to the 
United States to get their graduate degrees with safeguards to ensure 
they return to Haiti when they graduate can complement the return of 
the Haitian diaspora to build new institutions.
    Such transformational programs would surely affect the economic, 
social, and political power structures of Haitian society. But without 
buy-in from elites, the vested interests in Haitian society will 
undermine any reform efforts. Even though major natural disasters are 
sometimes a catalyst to reform movements, no outside aid agency, 
whether it be the U.N., World Bank, the NGOs, or USAID, can substitute 
for Haitian leadership.
    Without such competent and honest Haitian leadership, any 
institution-building exercise will fail. Lasting change will be 
achieved when Haitian political leaders show the political will to 
enact and implement major political and economic reforms. Haitian 
President Prevel has shown some technical skill in undertaking improved 
governance over the past 2 years, but he remained virtually invisible 
in the humanitarian aid effort which damaged him politically. He will 
need help, and one of the best ways of generating that help in a 
country which has had a chronic leadership deficit, is to bring back 
Haitians from the diaspora to help him build new Haitian institutions.
    It is important to differentiate between the political 
``ownership'' recommended here within and other circumstances in which 
donor agencies simply provide budgetary support to recipient country 
governments so that they may pursue their objectives, regardless of 
what they may be. Paul Collier, in his book ``The Bottom Billion,'' 
equates the external provision of budgetary support to countries like 
Haiti to the large inflows of oil revenue enjoyed by oil-rich 
developing countries such as Nigeria that have ``depressingly little to 
show for it.'' He argues that past evidence demonstrates that ``large 
inflows of money without any restrictions do not seem to be well spent 
in many of the countries'' where the poorest populations reside. 
Certainly in Haiti, where corruption is rampant and much of the 
government bureaucracy is a phantom, such budgetary support would 
attract predatory forces, even if controls were introduced.
    Regarding the aid allocated by the United States for the 
reconstruction of Haiti, a very long-time horizon will be required as 
it takes considerable time for institutions to form in such a society. 
Any development plan of less than 10 years will not yield sustainable 
and transformational results. Given the operational context through 
which aid programs will operate, the usual quarterly measurements 
demanded by the federal oversight agencies will not be useful and as 
contracts and grants will not be implemented within standard timeframes 
because of Haiti's weak institutions.
    To do this there must be a reduction of the regulatory and 
compliance burden on USAID. The Haitian Government and the USAID 
mission in Haiti will be empowered if funds are provided with as little 
micromanagement from Washington as possible. And, as predictable 
funding streams allow for greater dedication to programs, it is 
important that there is as much funding at the beginning of the plan as 
at the end. Washington must also avoid earmarking any funding by 
sectors or programs as the most transformational sectors have the least 
interest group support in Washington and will not produce short-term 
measureable outcomes.
    If western countries want to end the dysfunctional cycle of crisis 
and failed band aid development in Haiti, only an institution-based 
model of reconstruction will succeed. U.S. aid programs must be 
designed to facilitate better governance by the Haitian Government in 
addition to economic growth across Haitian society. Priority must be 
placed on the agricultural sector and the secondary road network to 
create an integrated national Haitian economy, rather than one 
dependent exclusively on the capital, Port-au-Prince. The professional 
expertise of the Haitian diaspora should be utilized, and scholarships 
must be extended to train professional managers and technical staff in 
GOH ministries. And, such initiatives should be complemented by 
security sector reform that produces a functioning criminal justice 
system and police force to protect the Haitian people. While history 
may project a pessimistic outlook for Haiti's transformation, it also 
provides critical lessons that the GOH and international community must 
consider in order to move Haiti toward a brighter future.

    Senator Casey. Mr. Natsios, thanks very much.
    Mr. Penn.

      STATEMENT OF SEAN PENN, FOUNDER, J/P HAITIAN RELIEF 
                ORGANIZATION, SAN FRANCISCO, CA

    Mr. Penn. Mr. Chairman, Senator Corker, my name is Sean 
Penn. I've been on the ground in Haiti, since the first week 
following January's earthquake, as NGO director and CEO for the
J/P Haitian Relief Organization.
    Since that time, my team and I have lived in a tent camp in 
the Bourdon area of Port-au-Prince, adjacent to and 
administering aid to a 55,000-person IDP camp, one of the 
largest ad hoc camps in the country. My organization has been 
designated camp manager of this site, locally called ``Terrain 
de Golfe'' by the U.N. International Organization of Migration.
    From our first days in Haiti, my team and I witnessed 
amputations without anesthesia or IV pain medication, things we 
soon were able to supply to hospitals and clinics throughout 
the city and country; emergency amputations performed in 
spontaneously raised tent operating rooms, dusty and mosquito-
ridden; limbs severed from children with tools more familiar to 
the local hardware store than to those we traditionally expect 
in the hands of surgeons.
    It is true that this stage of post-quake trauma and drama 
has largely subsided. Only 2 weeks ago, however, a less 
tangible, visible, or fundable emergency raised its head. Our 
camp clinic diagnosed what became the first confirmed case of 
diphtheria. I rode in the back of the ambulance while the 
patient was refused from several hospitals because the 15-year-
old boy, Oriole Lynn Peter, was diagnosed with a disease for 
which those hospitals had no treatment capability.
    In this city of ruins, five fully functionally hospitals 
have been allowed to close, despite the emergent disasters, due 
to financial undersupport and the inertia of protective 
overscrutiny. In many cases, the bureaucracy of international 
aid is ``protecting people to death.''
    Diphtheria is among the first of five things that an 
American traveling to Haiti is inoculated against, and yet, in 
a country devastated with hundreds of millions of American-
donated dollars of dedicated emergency aid, and billions 
pledged for reconstruction, there were no isolation wards, few 
ventilators and, despite the all-out last-minute efforts of the 
administrations of every major hospital in the city, the 
American Red Cross, the dedicated and beyond-job-description 
effort of the commander of U.S. military forces in Haiti, the 
WHO, USAID, and the CDC, along with a fractured Haitian 
Ministry of Health, it took 14 hours, between all of these 
organizations, to locate a single patient dose of the 
immunoglobulin that would have likely saved this 15-year-old 
boy's life, had it been readily available.
    As we rode through the rubble and traffic-blocked streets 
in search of his care, I held the ankle of an animated and 
normal 15-year-old boy, who, to his own knowledge, was merely 
suffering from a sore throat and a bit of fever. He couldn't 
have known that the grey-hued bacteria in his esophagus would 
kill him within a day and a half, and it did.
    Since that day, a series of diphtheria cases have come to 
light, including another one in our camp, brought to our 
hospital 4 days ago.
    But, diphtheria is only one of many diseases that threaten, 
in particular, the 1.8 million displaced today, living in 
compressed and unsanitary camps, where tent-to-tent 
construction would take just one match to create an inferno 
that can incinerate thousands.
    In a city where nearly no access--where there is nearly no 
access to electricity, there is little fuel to run the 
generators, few lights to generate, and the rapes of women and 
children may occur at will, it will be the rain of this season 
that spreads the diarrheal diseases, where, globally, 80 
percent of the fatal cases are among children under 5. There 
are hundreds of thousands of them in Port-au-Prince alone.
    It should be said that, while there are claims to grand 
programs of immunization, it is the simple truth that Haitians, 
for the most part, remain unprotected, and that there is little 
evidence that those that have been immunized have records or 
access to established boosters and followup necessary with 
the--as with all immunizations.
    It should also be said that, in a city the size of Port-au-
Prince, as with the densely populated--all densely populated 
areas of Haiti, the idea that, as in the case of the diphtheria 
immunoglobulin, a single warehouse maintains what little supply 
may exist, is an unacceptable acceptance.
    Prevention is difficult to get people excited about, but 
cold chains for the transport and preservation of these 
necessary immunizations and treatments must be established 
throughout Port-au-Prince and Haiti, as much stockpiles for the 
necessary remedies for the dehydration that comes with 
diarrheal diseases.
    It must also be said that the quality and training of 
prequake health care in Haiti was already at a minimum, and 
that with the death and flight of so many among the most 
capable in Haitian medical community, that it will be some time 
before the international medical staff will be relieved of the 
humanitarian and training demand.
    I come here today as a witness, not only to the state of 
current emergency, but also to the heroic efforts of the United 
States and international doctors, soldiers, and relief workers, 
of the NGOs in partnership and service with the great Haitian 
people and their government.
    I come here today and hope that we'll address with bold 
clarity the razor's edge upon which Haiti lies, so that all in 
our own country, all that our country has given in sacrifice 
and service, will not be washed away with this rainy season and 
leave bright and dancing Haitian eyes to go still in death from 
disease and flood and, God forbid, the man-made disaster of 
violent unrest.
    From President Obama, Secretary of State Clinton, and 
Secretary of Defense Gates, and throughout the policies and 
generosities offered this situation to date, the United States 
can hold its head very high. The compassionate and no-nonsense 
posture of our military has been moving and inspiring. But, 
with the official emergency phase declared over, as most of 
them redeploy into other struggles, we owe it to all of them, 
and to ourselves, in reestablishing the character of American 
foreign policy, to stay the course in Haiti. Make no mistake, 
this is a war against our ally and neighbor, and we have only 
this chance to show the world that we are willing to fight that 
war and save its victims, and are not dependent on hating and 
killing their assailant.
    It is a war against the diseases and preventable disasters 
caused by nature and poverty. And the United States military 
has played, and must continue to play, a central role in Haiti, 
as the surge of the enemy is imminent. Countrywide, we have 
dropped American troop levels from about 22,000 to somewhere in 
the area of 500.
    We must also not underestimate the likelihood, known to all 
of us on the ground in Haiti, of some level of violent social 
unrest. As Americans, we could call on the Government of Haiti 
and our own Government to acknowledge that a state of emergency 
still exists, to demand full transparency in the way that aid 
is distributed, and accountability for how aid organizations 
advertise themselves in the solicitation of funds. Full and 
total transparency.
    Now is the time for all concerned parties to acknowledge 
that an emergency phase is simply an economic determination and 
that prevention of foreseeable human tolls on massive levels--
in particular, young children--cannot be summarily dismissed by 
the aspiration of a monumental reconstruction, offering 
empowerment, demanding independence in governance, or claiming 
it is a distraction from the rebuilding of a country that, in 
many ways, was never built in the first place.
    The Haitian people are as strong and resilient as any I've 
ever seen. There are great lessons of character for our country 
to learn from the Haitians. President Preval and his 
administration have proven, in their prequake efforts, the will 
of Haiti to overcome its devastating legacies. But, to demand 
of them, or encourage their demand of, a fractured society's 
independence prematurely will be murder by another name. Issues 
of equity and distribution of aid are a fine aspiration, but, 
when the emergency room has got a line out the door, and the 
hospital pharmaceutical stockpile has not been inventoried, we 
have to find a way to treat patients while the counting is 
done, and not leave them at the door to die on the street.
    I am, and I believe I speak for all responsible aid 
workers, in full support of parallel planning and 
reconstruction and the nurturing of an independent people's 
self-reliance. But, as we punish those who are lazy, punish 
those who are corrupt, so shall we kill the innocent and the 
willful.
    In an emergency, donors offer money and expect it to be 
spent helping people. I hope we are here today to encourage 
just that.
    Thank you.
    [The prepared statement of Mr. Penn follows:]

      Prepared Statement of Sean Penn, Founder, J/P Haiti Relief 
                    Organization, San Francisco, CA

    Mr. Chairman, members of the committee, my name is Sean Penn. I 
have been in Haiti as Director and CEO of my NGO J/P Haitian Relief 
Organization, and have been on the ground in Haiti since the first week 
following January's earthquake. Since that time, my team and I have 
lived in a tent camp in the Bourdon area of Port-au-Prince, adjacent to 
and administering aid to a 55,000 person IDP camp, one of the largest 
ad-hock camps in the country. My organization has been designated by 
the U.N. International Office of Migration as camp management for this 
IDP camp.
    From our first days in Haiti, my team and I witnessed amputations 
without anesthesia or IV pain medication, things we soon were able to 
supply to hospitals and clinics throughout the city and the country. 
Limbs severed in spontaneously raised tent operating rooms, dusty and 
mosquito ridden. Limbs severed from children with tools more familiar 
to our local hardware store than to those we traditionally expect in 
the hands of surgeons. It is true that this stage of post-quake trauma 
and drama has largely subsided.
    Only 2 weeks ago however, a less tangible, visible or fundable 
emergency raised its head. Our camp clinic diagnosed what became the 
first confirmed case of diphtheria. I rode in the back of the ambulance 
while the patient was refused from several hospitals because the 15-
year-old boy, Oriole Lynn Peter, was diagnosed with a disease for which 
those hospitals had no treatment capability. In this city of ruins 5 
fully functional hospitals have been allowed to close despite these 
emergent disasters, facing financial undersupport and overscrutiny. In 
many cases, the bureaucracy of international aid is protecting people 
to death. Diphtheria is among the first five things that an American 
traveling to Haiti is inoculated against, and yet, in this devastated 
country with hundreds of millions of American donated dollars of 
dedicated emergency aid and billions pledged for reconstruction, there 
were no isolation wards, few ventilators, and despite the all out last 
minute efforts of the American Red Cross, the administrations of every 
major hospital in the city, the dedicated and beyond job description 
effort of the commander of the U.S. military forces in Haiti (Major 
General Trombitas), the WHO, USAID, and the CDC, along with a fractured 
Haitian Ministry of health, it took 14 hours between all of these 
organizations to locate a single patient dose of the immunoglobulin 
that would likely have saved this 15-year-old boy's life had it been 
readily available. As we rode through the rubble and traffic-blocked 
streets in search of his care I held the ankle of an animated and 
normal 15-year-old boy who to his own knowledge was merely suffering 
from a sore throat and a bit of a fever. He couldn't have known that 
the grey-hued bacteria would kill him within a day and half and it did.
    Since that day, a series of diphtheria cases have come to light, 
including another one in our camp brought to our hospital 4 days ago. 
But diphtheria is only one of many diseases that threaten, in 
particular, the 1.8 million displaced today, living in compressed and 
unsanitary camps, where tent-to-tent construction would take one match 
to create the inferno that could incinerate thousands. In a city with 
nearly no access to electricity there is little fuel to run generators, 
few lights to generate, and the rapes of women and children occur at 
will. It will be the rain of this season that spreads the diarrheal 
diseases that globally find their victims--80 percent among children 
under 5. There are hundreds of thousands of them in Port-au-Prince 
alone. It should be said that while there are claims to grand programs 
of immunization it is the simple truth that most Haitians remain 
unprotected and that there is little evidence that those that have been 
immunized have records or access to establish boosters and followup 
necessary with all immunizations. It should also be said that in a city 
the size of Port-au-Prince, as with all the densely populated areas in 
Haiti, the idea that, as in the case with the diphtheria 
immunoglobulin, a single warehouse maintains what little supply may 
exist is an unacceptable acceptance. Prevention is difficult to get 
people excited about. But cold chains for the transport and 
preservation of these necessary immunizations and treatments must be 
established throughout Port-au-Prince and Haiti, as must stockpiles of 
the necessary remedies for the dehydration that comes with diarrheal 
diseases. It must also be said that the quality and training of 
prequake health care in Haiti was already at a minimum and that with 
the death and flight of so many among the most capable in the Haitian 
medical community, that it will be some time before international 
medical staff will be relieved of the humanitarian and training demand.
    I come here today as a witness not only to a state of current 
emergency but also to the heroic efforts of United States and 
international doctors, soldiers, and relief workers, of the NGOs in 
partnership and service with the great Haitian people and their 
government. I come here today in the hope that we will address with 
bold clarity the razors edge upon which Haiti lies so that all that our 
own country has given in sacrifice and service will not be washed away 
with this rainy season and leave bright and dancing Haitian eyes to go 
still in death from disease and flood, and God forbid the manmade 
disaster of violent unrest. From President Obama, Secretary of State 
Clinton, and Secretary of Defense Gates and throughout the policies and 
generosities offered this situation to date, the United States can hold 
its head very high. The compassionate and no nonsense posture of our 
military has been moving and inspiring. But, with the official 
``emergency phase'' declared over, as most of them redeploy into other 
struggles, we owe it to all of them and to ourselves in reestablishing 
the character of American foreign policy to stay the course in Haiti. 
Make no mistake, this is a war against our ally and neighbor, and we 
have only this chance to show the world that we are willing to fight 
that war to save its victims and are not dependent on hating and 
killing their assailant. It is a war against the diseases and 
preventable disasters caused by nature and poverty.
    We must also not underestimate the likelihood, known to all of us 
on the ground in Haiti, of violent social unrest. As Americans, we 
should call on the Government of Haiti and on our own government, to 
acknowledge that a state of emergency still exists. To demand FULL 
TRANSPARENCY in the way that aid is distributed and accountability for 
how aid organizations advertise themselves in the solicitation of 
funds. Full and total transparency. Now is the time for all concerned 
parties to acknowledge that an ``emergency phase'' is simply an 
economic determination, and that the prevention of foreseeable human 
tolls on massive levels, in particular young children, cannot be 
summarily dismissed by the aspiration of a monumental reconstruction, 
offering empowerment, demanding independence and governance, or 
claiming it as a distraction from the rebuilding of a country that in 
many ways was never built in the first place.
    The Haitian people are as strong and resilient as any I have ever 
seen. There are great lessons of character for our country to learn 
from Haitians. President Preval and his administration have proven in 
their prequake efforts the will of Haiti to overcome its devastating 
legacy. But to demand of them, or encourage their demand of a fractured 
society's independence prematurely, will be murder by another name. 
Issues of equity in distribution of aid are a fine aspiration, but when 
the emergency room has got a line out the door and the hospital 
pharmaceutical stockpile has not been inventoried, we have to find a 
way to treat patients while the counting is done and not leave them at 
the door to die on the street.
    I am, and I believe I speak for all responsible aid workers, in 
full support of parallel planning in reconstruction and the nurturing 
of an independent peoples self reliance. But as we punish those who are 
lazy, punish those who are corrupt, so shall we kill the innocent and 
the willful. In an emergency, donors offer money and expect it to be 
spent helping people. I hope we are here today to encourage just that.

    Senator Casey. Thank you, Mr. Penn.
    Mr. Schneider.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Schneider. Thank you very much, Mr. Chairman, Senator 
Corker.
    Let me express my appreciation, as others, for the 
bipartisan support for Haiti reflected in this hearing and in 
the Kerry-Corker legislation that many of you have supported. 
Both reflect what is absolutely essential, as we've heard 
today; that is, a long-term commitment to Haiti's recovery, 
sustainable rebuilding, and refounding.
    And I use that--the term ``refounding''--yesterday, in 
fact, was Haiti's Independence Day, the Flag Day in Haiti. 
President Preval went to Arcahaie and spoke, and called for 
unity among all the political forces in the country; and, in 
fact, Haiti's future depends on that kind of political 
consensus if it's going to move forward.
    In the aftermath of the worst natural disaster in the 
history of the hemisphere, the lives and futures of more than a 
million men, women, and children, that are still displaced in 
spontaneous and collective shelters, remain uncertain and 
extremely fragile. Tropical storms are anticipated almost every 
day, and an approaching hurricane season, the physical threats 
of mudslides and flooding, and the fear of another quake are 
frightening realities for all Haitians.
    And the reality is that, while some 7,200 of the most 
vulnerable have been moved to sturdier sites, others have not, 
and many, many more should be classified as most vulnerable.
    There are also several hundred thousand in what are called 
high-risk camps, where serious health risks currently exist. 
There's an urgent need, in terms of what needs to be done 
immediately. There's an urgent need for a final decision on the 
resettlement strategy, jointly, of the Government of Haiti, 
with OCHA--that is, with the Coordination for Humanitarian 
Affairs of the United Nations--the United States, and others, 
and the funds identified to begin, rapidly, to execute that 
strategy.
    I returned from Haiti last Thursday, after 4 days in Port-
au-Prince; it's my second visit there since January. As many of 
you know, I've made many visits to Haiti over the course of the 
last past several decades.
    Crisis Group always emphasizes security, governance, and 
political stability. And that was the focus of my visit, so 
that's what I want to speak to you about today. Security starts 
with the U.N. peacekeeping forces of MINUSTAH. It needs to be 
bolstered with more U.N. police and more authority. Without it 
there is, in fact, going to be chaos.
    MINUSTAH has to be strengthened, particularly with respect 
to the police forces among it, and it needs to have the 
authority to reach out and to essentially help the Haitian 
National Police assure protection in the camps, particularly 
for vulnerable women and children.
    At the same time--and this goes to the questions that you 
heard--there's an emergency and there's also a longer term 
effort to rebuild some kind of state structure. The United 
States and the U.N. need to renew the priority for 
strengthening the Haitian National Police--the HNP--complete 
the vetting of its force, and restart training. Until last 
Monday, that was not possible, because the Haitian 
parliamentarians were in the police academy after the 
Parliament building had collapsed. They're now leaving. And 
now's the time to begin retraining the police force.
    As you know, some 4,000 prisoners escaped under unclear 
circumstances from the national penitentiary on the day of the 
quake, including hundreds of gang members and serious 
criminals. According to the HNP, they've recaptured some 567, a 
few others were killed, and the prison population is back to 
800. But, there's no question, none at all, that gang members 
are trying to sink their roots into their old or new 
communities in Martissant, Bel-Air, as well as Cite Soleil. And 
that's why we see kidnappings going up. The rising number of 
kidnappings and sexual assaults, particularly in the camps, 
require remedial action.
    I walked, at night with U.N. police, through one of those 
camps at the Ancien airport, the old military airport runway. 
There are now 17,000 families on that runway, more than 80,000 
people. They live in tent slums transplanted from nearby Cite 
Soleil and elsewhere. There's 138 of these kinds of encampments 
in Haiti. Close to 60 percent function without a camp 
management agency. In too many, I saw male and female latrines 
and showers side by side, and that virtually invites sexual 
assault. There have been too many reports already of rapes. And 
while there were rapes and sexual violence previously, before 
the quake, that does not excuse the current violence, 
especially since several of the camps are under international 
management. Due diligence is required to make it less likely 
for those unacceptable assaults to take place.
    On governance, let me just mention two critical issues 
you've been discussing this morning.
    The reconstruction program approved by Haiti's Government--
and this, to some degree, I think Senator Corker responds to 
your question about the vision--this is the plan that was 
prepared and presented by the Haitian Government to the Donors 
Conference. It was put together by the Haitian Government, in 
interaction with international experts, including the diaspora. 
And that essentially sets out a series of principles and goals, 
and their priorities, including for financing. And some of them 
are education, particularly expanding public education, 
agriculture, environment, governance, etc.
    Right now, the reality is that things have not been moving 
as fast as they need to. Pledges were made of $5.2 billion over 
the next 18 months, $10 billion over the next decade, and it's 
essential that these begin to be implemented so that there's 
both more visible and real physical and spiritual renewal in 
Haiti.
    The Interim Reconstruction Commission that was part of that 
proposal has yet to reach agreement on who will be the 
executive director, who will staff it, and how it will build 
new capacity in Haiti's ministries, because it has to do two 
things. It has to move projects that deal with the problems of 
reconstruction, and it also has to begin to help build a 
Haitian state that can function.
    And here, let me just mention one thing with respect to 
what Andrew said. He's right about the history of Haiti the 
past couple of decades, in terms of dysfunctional state. But, 
over the last couple of years, Haiti had begun to move forward. 
That really needs to be recognized--it fell back horrendously 
with the earthquake, but now we have to ensure that the program 
of reconstruction deals both with immediate helping the people 
of Haiti, but also building a functioning government.
    Second, governance is crucial. You have to have a 
government for reconstruction to succeed. You don't have a 
legislature right now. One-third of the Senate and the entire 
lower House terms ended last Monday. Between now and next year, 
you have got to go through general elections and move as 
quickly as possible in that direction.
    President Preval, when I was there, announced that he was 
committed to the November 28th constitutional date for 
elections. The U.N., the OAS, have now issued a technical 
report that says it's possible. But, things have to happen now. 
And that means, essentially, that the money needs to be made 
available to permit individuals after the quake to obtain new 
identify cards, voter registration, identifying the places 
where people will vote, training the workers. You know the 
requirements. That has to begin. And to lessen tensions, the 
government has to reach out to the opposition and begin to form 
some kind of consensus about how to move forward.
    Finally, on stability. It's based really on whether or not 
the rule of law begins to be seen in Haiti, whether you're 
going to see actions by the police to deal with crime, whether 
the U.N., together with Haiti, can move that forward, and 
whether reconstruction can begin to move forward more quickly.
    Most worrying is the possibility for serious social unrest. 
Political movements are already beginning to take advantage of 
the very real hardships, frustrations, and anxieties endured by 
more than a million Haitians. We've seen many demonstrations 
now, and they are becoming more regular.
    Now, what can be done? You mentioned things that have 
already--in process here in the Congress----
    Senator Casey. Mr. Schneider, will you--we need you to wrap 
up.
    Mr. Schneider. OK. I just--one, Congress has to pass the 
emergency supplemental. Every day it's delayed means you can't 
do things in Haiti. Two, there needs to be a comprehensive 
strategy against sexual violence, put together by MINUSTAH, in 
Haiti. Three, the technical financial support for elections has 
to move forward. And, finally, in terms of long-term U.S. 
support, it has to focus on the area of governance and the rule 
of law: police, justice, prisons. Other donors don't like to 
get into this area. Without it, there's not going to be 
security. Without security, there's not going to be investment. 
Without investment, there's not going to be jobs and growth in 
Haiti.
    Thank you.
    [The prepared statement of Mr. Schneider follows:]

    Prepared Statement of Mark L. Schneider, Senior Vice President, 
               International Crisis Group, Washington, DC

    Mr. Chairman, I want to thank you and the ranking member and the 
committee as a whole for continuing its bipartisan support for a long-
term commitment by the United States to Haiti's recovery, sustainable 
rebuilding and ``refounding.''
    There are more than 1 million Haitians in shelters--men, women, and 
children. In the aftermath of the worst natural disaster in the history 
of the hemisphere, their lives and futures remain extremely fragile. 
With tropical storms anticipated and an approaching hurricane season, 
the physical threats facing the people in 1,282 spontaneous camps and 
collective centers in 13 municipalities including the capital, Port-au-
Prince, are real. While the most vulnerable are being moved, not all 
have been and others who have not been classified as ``most 
vulnerable'' probably should be.
    There is an urgent need for decisions on resettlement strategy by 
the Government of Haiti with OCHA, MINUSTAH, the United States and 
others and the funds identified to begin rapidly to execute that 
strategy.
    I returned from Haiti last Thursday night after 4 days on the 
ground in Port-au-Prince. It was my second visit there since January 
12. As you know the Crisis Group has been analyzing the factors driving 
conflict in Haiti since 2004. Our focus always emphasizes security, 
governance, and the underlying political stability of the country. Our 
last report on March 31, the same day as the U.N. Donor Conference, 
underscored that stability depended on a reconstruction program based 
on broad political and social consensus and Haitian ownership, a 
transparent and accountable multidonor funding mechanism and an 
efficient Haitian Government-led implementing structure that could move 
rapidly enough to instill confidence in Haitians and domestic and 
foreign investors and that answered the questions of democratic 
governance and the rule of law, as a matter of urgency. Some of those 
questions have been partially answered, others still require both 
decisions and action.
    We pointed out in our March 31 report, ``Haiti: Stabilisation and 
Reconstruction after the Quake,'' that most of Haiti's 
parliamentarians' terms were about to expire, which they did, on May 
10. President Preval is in his final year in office as are the 
country's mayors and the obstacles standing in the way of credible 
elections have to be overcome. We said then that the continuing 
presence of the U.N. peacekeeping force was essential both to support 
the Haitian National Police (HNP) in making Haiti safer and to protect 
civilians, particularly women and children within IDP camps, where a 
now even weaker HNP is unable to do so. After my visit there this past 
week, it is clear that all of those recommendations remain valid. There 
has been some progress in many arenas--just not enough and not fast 
enough.
    The Congress has to move in one key area. The emergency 
supplemental proposal for $2.8 billion for Haiti reconstruction was 
submitted by the Obama administration on 24 March. We urged that it be 
submitted even earlier but compared to past timeframes it was among the 
speediest after natural disasters, as was the March 31 Donor 
Conference. The supplemental has not yet reached the floor in either 
House. In general I know there is strong congressional support for this 
measure and it must be passed soon. Failure to have the authority to 
spend those resources will increasingly bind the hands of project and 
program managers in USAID, the State Department and Treasury--and send 
the wrong message to other donors.
    In assessing the current situation, we can look first the progress: 
The Donor Conference--which took place far more quickly than the 
response to the 2008 hurricanes--was a success and $5.2 billion was 
pledged for the first 18 months to carry out the Action Plan for 
National Recovery and Development of Haiti (PARDN), proposed by the 
Haitian Government with the aid of international experts, as part of 
its $10 billion decade-long recovery plan. It included a multidonor 
trust fund, and a hybrid Haiti/international Interim Haiti 
Reconstruction Commission (IHRC) with parallel auditing, 
decentralization, regional development hubs and a call for vast 
investment in human and physical infrastructure as well as encouraging 
state institution-building.
    President Preval and PM Bellerive--despite the political risk 
involved--won parliamentary approval for the IHRC. Last Monday Preval 
also cochaired a meeting on elections with the U.N. SRSG and 
specifically supported holding parliamentary and Presidential elections 
according to the Constitution on November 28. Parliament also took 
action to avoid any jerry-rigged transitional government next year if 
there is unavoidable delay of a few days in the election calendar. 
Preval recently endorsed in writing the findings of U.N. and OAS 
assessment teams and announced on the radio that the election would be 
scheduled for 28 November, tasking the provincial electoral council and 
the donors to meet that deadline.
    Also positive is the news that former Prime Minister Marc Bazin has 
gathered another five former Prime Ministers representing different 
ideologies in a Forum of Former Prime Ministers. They have stated their 
willingness to serve as ``senior statesmen'' offering independent 
advice and counsel to the government. Preval has indicated a 
willingness to engage with them for that purpose.
    During my previous visit to Haiti in March there was no agreement 
on where to move the must vulnerable people in the shelters and some 
victims were still waiting for tarps or tents. It now appears that most 
Haitians in need have received a tent or tarps--covering more than 1.5 
million people. There are two functioning official government 
campsites, at Corail Cesselesse and Tabarre lssa, where with 
international support, tents, basic access to water and sanitation, 
food, security, and lights have been provided to some 7,200 
individuals. There are the beginnings of a more robust HNP and U.N. 
Police presence around the camps. Haitian agriculture production is up, 
and the U.S. approval of new legislation that increases the window for 
Haitian textile imports also should also boost jobs in that industry 
and Haitian agriculture production is up. And about 100,000 or more 
Haitians are receiving cash for work on a 2-week revolving basis.
    This progress would be seen as quite significant if the magnitude 
of the challenges were not so immense.
    Second, the challenges: Everything needs to move faster. Plans 
exist on paper but the decisions about alternatives remain unclear. Few 
of the implementing mechanisms are in place. Fifteen of the countries' 
seventeen ministry buildings collapsed in the quake. Now the trailer, 
Quonset but and open air tents that house a small portion of ministry 
employees also serve as physical reminders of the devastation suffered 
by state institutions.

  <bullet> Security has been negatively affected by the escape of more 
        than 4,000 prisoners from the national penitentiary, including 
        some hundreds of gang members and serious criminals. According 
        to the HNP, a total of 567 have been recaptured, and a few 
        others killed and the prison population is now back up to 800. 
        However, there is little question that the gang members are 
        trying to sink their roots into their old or new impoverished 
        communities in Martissant and Belair as well as Cite Soleil. 
        There was also serious damage to the Haitian National Police 
        infrastructure. Some 77 police officers were killed, another 
        253 suffered severe injuries, another several hundred have not 
        returned for unknown reasons. The National Police headquarters 
        and some 45 stations and substations collapsed or suffered 
        major damage along with numerous police vehicles. The rising 
        numbers of kidnappings and sexual assaults, particularly in the 
        camps, requires urgent remedial action. Perhaps most worrying 
        is the possibility for serious social unrest as political 
        movements take advantage of the very real hardships, 
        frustrations, and anxieties being endured by more than a 
        million Haitians. Already demonstrations--some with a threat of 
        violence--are taking place regularly in the capital and in a 
        few other cities. All of these conditions could become 
        aggravated in the event of floods and mudslides before 
        emergency precautions can be taken.
      It is clear that within the MINUSTAH structure, additional HNP 
        are needed to support security needs. It also is clear that the 
        HNP has to be supported to restart its fledgling reform 
        program, including enabling the 22nd police recruiting class to 
        begin its training at the police school. It also should be 
        supported in completing the vetting process and in carrying out 
        post-quake investigations.
  <bullet> The 99 Members of the Haitian Chamber of Deputies and a 
        third of their Senate ended their terms last Monday. The 
        government consists of President Preval, his ministers and 19 
        Members of the Haitian Senate along with 140 mayoral councils 
        and other local officials. The planned February 28 
        parliamentary election was postponed. Nearly 40 percent of 
        voting sites in the key departments had been destroyed in the 
        quake and hundreds of thousands had lost their voting IDs, 
        while others had fled to the country side. The Office of 
        National Identification (ONI) had not updated the basic civil 
        registry since 2005. Since then, an unknown number of people 
        turned 18--500,000 have died, including 230,000 deaths in the 
        quake, which also prompted 600,000 to flee the capital--all of 
        which has created conditions that would tax even a well-
        functioning civil and voting registration bureaucracy. The 
        current CEP, even though it has yet to actually manage an 
        election since it was only named after the 2009 polls, had 
        already been criticized by political opponents. A hard and fast 
        path has to be blazed to get from here to Presidential and 
        legislative elections in November so that a new government can 
        take office on 7 February 2011. For the least contentious 
        process, the government needs to pursue more consensus with the 
        opposing political party elites and other opponents, including 
        some renewal of the CEP and its mandate. Those steps would 
        underscore President Preval's commitment for November 
        elections, a credible government in place next year, and 
        political stability. It also will require immediate technical 
        and financial support from the international community to every 
        aspect of the process, moving quickly on the civil and voting 
        registration process, political party support, widespread civic 
        education, electoral observation and helping the CEP meet the 
        major logistical challenges in the aftermath of the quake.
  <bullet> Further, the IHRC, for which the enabling decree was not 
        issued until 5 May, is not in place. The position for IHRC 
        executive director was just posted and will not be closed until 
        June 30 and there have not been final decisions on who will 
        staff that agency or how it will work with the Haitian 
        ministries. Over its proposed 18-month operation, the IHRC 
        needs not only to be flexible, lean, and move projects faster 
        than ever before, transparently and efficiently. It also has to 
        be structured and managed so that it serves as a temporary 
        building block to long-term strengthening of Haiti's Government 
        capacity--both in Port-au-Prince and around the island. Ideally 
        ministry planning and policy units and perhaps the key initial 
        implementers would be seconded to the IHRC to work side by side 
        with international experts all of whom would return to their 
        ministerial homes when this critical 18-month initial phase is 
        complete. The IHRC also must reach out into the departments at 
        least for reporting purposes if the decentralization process is 
        going to be real.
  <bullet> The government is still quite far away from filling the 
        budget gap by 30 September 2010, Initial evaluations in March 
        by the government, IMF, and other partners showed a budget gap 
        of $350 million. Revenue collection has been better than 
        expected and the economy has been gradually rebounding, 
        particularly in areas such as telecommunications, and there 
        have been some reductions in spending plans, which have helped 
        to reduce the gap to $270 million. Budget support commitments 
        currently total some $95 million to date, which leaves a gap of 
        some $175 million. There is further promised funding of $30 
        million in July from the World Bank. The United States could 
        make a very strong statement of support for rebuilding Haiti's 
        Government and meeting critical needs if it were to contribute 
        a significant amount to fill that budget gap--with appropriate 
        safeguards. One way would be to agree with the Haitian 
        Government that a portion of that support would cover the costs 
        of paying police salaries, including those of the incoming 22nd 
        police recruitment class, and perhaps teachers and health 
        professionals as well.
  <bullet> The middle class--from teachers to small business owners to 
        government employees--who have lost their homes may have been 
        lost in the cracks until now. However, there is not yet a clear 
        sense of how the recovery process will help these men and women 
        jump-start new enterprises and cover their expenses.
  <bullet> Meanwhile, the transitional camps are not fully in place. 
        Some 7,300 designated ``most vulnerable'' have been moved to 
        Tabarre Issa and Conrail but that definition probably is too 
        narrow. If the rains arrived in force this week, there would 
        likely be others who would not only be inundated but at risk of 
        being washed away. The numbers of the displaced change so 
        frequently that it is impossible to substantiate a full 
        registry of the displaced. The numbers have grown from 1.3 to 
        1.5 and most recently 1.7 million.
  <bullet> Let me briefly describe some of the conditions in the camps 
        we drove by and the several we walked through, including on 
        night patrol with U.N. police. There is a glaring distinction 
        between the extremely well-organized transitional shelter area 
        where some of the most vulnerable have been moved and most of 
        the other camps. In the new government/U.N. transitional space 
        at Tabarre Issa, there is space between the rows of tents, a 
        police presence and NGOs working to make life seem more normal. 
        There was even including a group that films a soap opera in the 
        camps during the day and screens it at night to the camp 
        dwellers. On the other hand, there are also hundreds of 
        disorganized, massive camps in Port-au-Prince where make-shift 
        canvass and tarp tent-like shelters virtually sit on top of one 
        another, such as the ``Ancien Aeroport Militaire,'' which I 
        visited last week, and which hosts as many as 16,732 
        households, according to the shelter cluster campsite registry. 
        On a 5-per-household basis, this translates into 83,660 
        persons, over 80 percent of the population of some of Haiti's 
        Caribbean neighbors, in transplanted tent slums from nearby 
        Cite Soleil and elsewhere. Another example is the Champs de 
        Mars campsite, just outside the National Palace, where some 
        50,000 individuals of 10,312 households now live. A total of 
        138 of these camps are found in the capital, Port-au-Prince, 
        and of these close to 60 percent (79) function without a camp 
        management agency.
  <bullet> In too many, male and female latrines and showers set up 
        side by side virtually invite sexual violence. There have been 
        too many reports of rapes in camps since January. Yes, there 
        were rapes and sexual violence in the nearby urban slums of 
        Cite Soleil and other areas before the quake, but this does not 
        excuse the current violence, especially since several of these 
        camps are under international management. Due diligence is 
        required to make it less likely for those unacceptable assaults 
        to take place.
  <bullet> In our last report, Crisis Group urged in our last report, 
        following my trip to Haiti in March, that the U.N. Police and 
        the HNP agree on a standard set of joint walking patrols 
        through the camps and that a fixed joint police presence be 
        established in the larger camps. The United States has obtained 
        38 tents and other facilities for that purpose. It is now 4 
        months after the quake and the tents have not yet been 
        installed. And only now are the joint walking patrols 
        beginning, but not everywhere and not on a schedule that 
        permits checking and gives the residents a sense of security. 
        HNP and U.N. Police say they agree it needs to be done but full 
        implementation remains to be seen. This month's scheduled 
        arrival of a contingent of 110 female police officers from 
        Bangladesh can significantly boost MINUSTAH efforts to support 
        the Haitian National Police and the relief agencies managing 
        the camps in that regard.

    Finally, I would urge the committee to encourage the administration 
to seek several measures to strengthen the MINUSTAH peacekeeping effort 
in an upcoming Security Council resolution:
    1. Strengthen MINUSTAH's mandate by giving it primary 
responsibility for setting priorities with respect to integration of 
other U.N. agencies in the U.N. country team in order to better carry 
out its peacekeeping mandate. An early example would be to establish an 
integrated country team approach to the problem of sexual violence in 
the camps, coordinating available resources of UNDP, UNFPA, UNIFEM, 
UNHCR, UNICEF and OCHA.
    2. Ensure that the MINUSTAH mandate enables UNPOL on behalf and in 
close consultation with the HNP to guarantee security in the camps, 
particularly with respect to vulnerable women and children, and to 
support the resettlement of those at risk.
    3. Extend the mission's mandate for 2 years.
    4. Direct that MINUSTAH have available all necessary expert 
personnel to fulfill the election support role request by the 
Government of Haiti.
    5. Support the Secretary General's call for an increase in the size 
of UNPOL during this critical period and seek additional Haitian 
diaspora with police experience to bolster its capacity.
    Helping Haiti achieve its goal of recovery, reconstruction, and 
refounding will place enormous demands on the United States, the United 
Nation, the OAS and other members of the international community. 
Fulfilling those demands will enable Haiti to move past this disaster. 
Nothing less is acceptable.

    Senator Casey. Thank you very much.
    We're honored to be joined by our chairman, Chairman Kerry, 
and we're grateful that he organized this hearing.
    Chairman Kerry.

                STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Well, Senator Casey, thank you for chairing 
the hearing. Senator Corker, thanks for being part of this 
effort.
    And I apologize that I wasn't able to be here, but I was 
chairing a classified briefing in another part of the Capitol.
    Let me thank both panels for coming here today. I 
understand there was a productive discussion with Ambassador 
Ken Merten and the Haiti response coordinator, Chris Milligan, 
of USAID. And we're grateful for their efforts since January 
12.
    Also, I am delighted to be here with my constituent and 
former USAID Director, Andrew Natsios, who brings a lot of 
experience to these kinds of efforts. And he's been on the 
front lines of these things for a long time.
    Mark Schneider, thank you for your stewardship of the Peace 
Corps, and we appreciate your comments just now, and your help 
and observations here.
    And, Sean Penn, whose stewardship of the Jenkins/Penn 
Haitian Relief Organization has seen him now spend 4 months on 
the ground, managing a camp for 50,000 displaced Haitians in 
Petionville. And we thank you very much for that commitment and 
for the knowledge that you're sharing with us and bringing to 
us about this challenge.
    All of us understand that--I think we all understand--that 
Haiti--the world has certainly witnessed Haiti suffer perhaps 
the worst disaster that our hemisphere has ever seen. And while 
we don't see the CNN reports on the daily basis that we did 
previously, and there isn't the media crisis of urgency the 
public is witnessing on a daily basis, the truth is that 4 
months later the tragedy is still unfolding. And the challenge 
for people on the ground remains enormous.
    Many Haitians today are living in desperate and dangerous 
conditions, and, in many ways, our work in Haiti is just 
beginning, which is the purpose of this hearing and the 
importance of the legislation that we've just introduced.
    It's a reality that, even before the earthquake, Haiti's 
challenges were profound. But, now 1.3 million Haitians have 
lost their homes, and, even as we hold this hearing today, in 
the days ahead, the rains are pouring down, dripping through 
temporary nylon tarps, and turning the ground to mud. Still, 
Haiti's largest port, many of its roads, and its water and 
electricity infrastructure are essentially destroyed. And the 
serious health and environmental challenges include mudslides, 
untreated sewage, a medical system that, on its best days, 
struggles to care with the basics of care.
    Shockingly--and this is one of the things that I'm most 
concerned about; we've had some internal discussions about it 
here--4,000 schools were flattened. That risks presenting all 
of us with a lost generation of young Haitians. For many of 
them, their education ended with the earthquake, and there are 
efforts, obviously, to try to restore that; some going back to 
the schools that they have, some, as Sean Penn shared with me 
earlier--there are about 300 kids in his camp, for instance, 
who are getting schooling in their school.
    But, I think one of the greatest tasks ahead of us is to 
make certain that every kid in Haiti is in some kind of school, 
now, every day. And I can't think of any task more important, 
beyond, obviously, the basics of day-to-day subsistence, that 
could help to build the longer term future of Haiti.
    I would comment, Mr. Chairman, that I think that the--the 
world has responded to Haiti, at least in the initial days, 
with a relatively impressive set of promises and of immediate 
engagement. Our challenge now is to maintain that sense of 
urgency. In the hours to sort of translate--what were hours and 
days of rescue efforts have to now translate into months and 
years, even, of a sustained reconstruction.
    Senator Corker has joined with Senator Durbin and Senator 
Cardin and I to introduce legislation which will make a $3.5 
billion commitment to rebuild Haiti over the next 5 years. And 
during the funding of those 5 years, we want to ensure that our 
efforts are sustained, and we want to empower our aid agencies 
to engage in effective planning. And that's one of the most 
important things, I think, here.
    We try to establish a framework within which we can have 
democratic and competent governance, with adequate security, 
economic growth, and environmentally sustainable programs, 
particularly engaging women and children. And it tasks--our 
legislation tasks USAID with developing a comprehensive 
rebuilding and development strategy, and establishes a senior 
Haiti policy coordinator who will be responsible for advising 
and coordinating the United States policy in Haiti.
    Clearly, the people of Haiti need to be empowered and 
engaged in this effort as we go forward. Mark referred to the 
security challenge, and that is real, but also we've got to 
ensure that democracy does not become another casualty of the 
earthquake. And so, I endorse the notion that Haiti can, and it 
should, hold elections in November, as planned, and that we 
must do everything possible to guarantee that that can happen 
seamlessly.
    So, finally, I would just say that I think the world is 
ready to help, but I'm not sure the world has been presented 
with the kind of concentrated leadership and focus that is 
going to be necessary to coordinate the massive rebuilding, the 
massive clearing and then rebuilding, that is going to be 
imperative here.
    Over 100 countries have pledged $15 billion, at the Donors 
Conference that was held in April, but we have yet to make 
certain that there is going to be the delivery system for those 
funds, and the mechanism which is going to maximize the 
coordinated development necessary so that Haiti can absorb the 
aid that is standing at the ready. And so, we look forward to 
listening further to the witnesses here today as to how that 
coordinated effort can take place, and what is missing today, 
so that we don't fall flat on our own words. There have been a 
lot of speeches given about how this event, given all the past 
challenges Haiti has faced, has to become sort of the principal 
organizing moment, if you will, for Haiti not to be always in 
crisis, but to build that sustainable future.
    So, I think the word ``sustainable'' is a critical one as 
we think about the testimony of our witnesses.
    Thank you very much, Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. And we're grateful 
for your leadership on these and so many other issues.
    I wanted to start our questioning with a focus on the IDP--
the camps, and the internally displaced persons across Haiti.
    I guess, Mr. Penn and Mr. Schneider, together, and Mr. 
Natsios, as well, but just in terms of the reality on the 
ground in those camps, if you had--and you did, in your 
testimony--just some of it by way of repetition--but, if you 
had to list the urgent, or most urgent, needs in those camps, 
in terms of the approach of the international community and the 
Haitian Government, and, by extension, what we can do, in the 
United States.
    Mr. Penn. If I can make just the one correction, for the 
record, the what was formerly Jenkins/Penn Haitian Relief 
Organization is simply J/P Haitian Relief Organization. And to 
save everyone time today, what we do is on our www.jphro.org 
site.
    Senator Casey. OK.
    Mr. Penn. So, serving in camp management at the Petionville 
camp, we originally were designated as the No. 1, 
topographically, dangerous camp in the city. And that was for 
flood and mudslide mitigations. So, the designations to date 
have been that. That's the high risk that we have relocated on 
the basis of. So, once the mitigations were complete--we 
originally had 32,000 people at
high risk; there was an assessment done by the Army Corps of 
Engineers and the Navy Seabees--at that time, 750,000 persons, 
roughly, would have to be moved out of the camp to allow for 
the mitigations that would put those people out of risk, the 32 
among the 60,000 in camp. Later, there was a advancement of the 
mitigation program that led to what was a minimized number, of 
approximately 1,200 families, or 5,000 people. We initiated 
what then was the first relocation program, on that basis.
    In terms of equity, and understanding that other camps were 
in the same sort of risk in--these zones of other camps 
throughout the city and the country--we had to stand down on 
relocation. And that brings us back to the state of things in a 
camp.
    The state of things in the camp, as has been said, is, 
these are not tents, they're tarp shelters. They have ground, 
with no cover on them, in most cases. And by this time, in 
virtually every one of these camps, the soil is contaminated 
with fecal matter that is going to create these diseases, 
particularly raising when the rain comes.
    In many camps, depending upon which area of town you're 
looking at, you have gang infiltration. That is on the rise. 
Guns are coming up from out of rubble and other places. People 
are coming out of a state of shock. And the unified spirit is 
breaking up a little bit into a more desperate spirit, and 
people are becoming much more increasingly vulnerable.
    Most of the camps that we're talking about, in a city that 
has almost no light, fall into absolute darkness, so you can 
imagine your children walking around in compressed tent-to-tent 
construction, with alleys about this wide, and a culture of 
tens of thousands of them roaming around at night, totally 
vulnerable to predatory behavior, as well as disease, as well 
as fire, as well as problems of a totally acceptable level--by 
``acceptable,'' I'm talking about what seems to be the case in 
Haiti--acceptable level of massive malnutrition, as opposed to 
starvation. And so, this is a situation we're in now.
    And these--it should be understood, these tent camps did 
not exist in Haiti prequake. So, when people look at these 
things on the news, understand that these hundreds of thousands 
of people throughout this city--and 1.8 million, I believe it 
is, displaced throughout--are in a brand new setting of 
spontaneous camps, where we have then come, as NGOs and the 
other international agencies, and tried to put some kind of 
services into the middle of this. In most cases, lighting is 
not part of that. In most cases, generators are not there for 
lights that are not there to illuminate the areas near, for 
example, latrines and so on.
    So, when we talk about camp management--and I'll summarize 
this now--we're talking about a situation where IOM has been 
largely depended upon to recruit those people who would be camp 
managers. There are charitable agencies, there are NGOs that 
are on the ground, with enormous funds, and they have to be 
counted on to recruit those camp managers, who will advocate, 
camp by camp, and not just ghost-advocate by supplying a simple 
service, as water, and then coming back every few days to fill 
a bladder, but to actually take accountability for the actions 
of all NGO actors necessary to the services on a humanitarian-
standard basis while there is an aggressive effort to relocate 
people to either planned sites, which is going to be continued 
as a--continue to be necessary for this--at this time, as well 
as temporary--and, ultimately, permanent--shelters, and in the 
greenhouse system.
    Senator Casey. I only have a little--about a minute and a 
half left for this round, but----
    Mr. Schneider. Just very quickly.
    Senator Casey [continuing]. Mr. Schneider. Sure.
    Mr. Schneider. It seems to me, the most important thing to 
do immediately, which can be done immediately, is to direct 
that there be joint walking patrols by the United Nations 
police and the Haitian National Police in the major camps, day 
and night, on a regular basis, and hold them accountable to do 
it. That's No. 1.
    No. 2, of the 128 or so camps, there are about 19 of them 
that are way over 10,000. In one of the camps I visited, there 
were 80,000 people. The Champs de Mars camp holds somewhere 
around 47,000. And the Petionville golf club is in the same 
neighborhood. And the issue is, it seems to me, that in those 
camps, you need to have fixed sites where police are available. 
The United States finally, now, has double tents, where they're 
going to give them to the U.N. and IOM to place in these camps. 
That has to be done. You have to have fixed places where people 
can go to complain and where they know that there are police 
there, which will reduce, some degree, the level of risk.
    And the second is that you have to make a decision on 
resettlement strategy, about what you're going to do with these 
people over time. It's not going to happen overnight. It's not 
going to happen for--unfortunately, for a long period of time. 
But, you need to make the decision about--this is what you're 
going to do for each category of displaced persons.
    You've now got three government-run secondary camps where 
you're going to take the ones most at risk. You have to ensure 
that that begins to be expanded on a much more rapid basis. 
Only 7,200 people have been moved. Before the rains and the 
hurricanes come, you need to move all of those who are most at 
risk, perhaps 20,000 or so.
    At the same time, you have to provide the people with the 
vouchers and the assistance, if they do have houses marked with 
green paint as safe or able to be repaired, to return there. 
You need to provide them with those vouchers and actually have 
them go back and start the repair process.
    But, the decision has to be made about the resettlement 
strategy now.
    Senator Casey. Senator Corker.
    Senator Corker. I want to thank all of you for your 
testimony--I think it's been outstanding--and certainly the 
personal commitment to the people of Haiti.
    Mr. Schneider just gave a list of those immediate things 
that he believes ought to happen. I wonder, Mr. Penn, if you 
want to add to that or give a different perspective as to if 
you, yourself, were the person dealing, ultimately, with the 
immediate needs of people in Haiti. What are those things that 
you think are possible to occur today, that are not happening, 
and could, with just a change of emphasis?
    Mr. Penn. Well, I would second what Mr. Schneider said, in 
terms of patrol. The body that does that patrol--I can tell 
that you that, at the current time, in terms of embedded 
MINUSTAH troops in areas of certain campsites, and so on, 
there's not something so simple as the demand that they have a 
translator with them. In one case, a 13-year-old girl was raped 
in a camp not 50 yards from the MINUSTAH site, and they did not 
pursue any kind of investigation of it for the 8 hours it took 
before the morning came and they hired a translator for $5 a 
day. So, those kinds of things, I think, can--are pretty simple 
to solve, but there has to be the motivation to do it.
    In terms of the general presence of MINUSTAH, I think a 
softer posture, one more represented by the--in the way that 
the United States military was, with the slung rifles and 
without a sort of storm trooper feel would be helpful, because 
there are very experienced and skilled troops within the Blue 
Helmet Corps, as well, but I think that there's got to be a 
kind of reassessment of the way in which they posture 
themselves within Haiti now, especially now, as tensions are 
beginning to rise. And I think that it's a moment to be very 
aggressive, in terms of policy, in terms of getting in there 
and saying, ``We've got to capture this moment of general 
civility before it goes,'' and offer something to it. So, I 
would say, more important than a kind of a storm trooper 
mentality would be the offering of translators so that you 
could take care of people as the smaller issues and as the 
tragedies on a more individual basis occur.
    Lighting, expansion of camps. When we talk about lands 
available--and I think we've all seen this--you're talking 
about big, flat areas, which have been determined to be out of 
flood zones, that just take a few more bulldozers and a bit 
more gravel to expand these sites to take in thousands more 
families.
    And another thing is that, when a lot of fingers were 
pointed at the Government of Haiti for not giving the lands in 
time, as the organization managing the camp from which these 
people were being relocated to receivership at Corail, the 
services were not available once that land was processed. So, 
when we were able to--for example, to put eight serials a day 
into the buses and cargo trucks to move these people to a safe 
place from a dangerous place, which was all that the intention 
was, we were told, each day, ``Hold off, send less. We don't 
have the tents. We don't have enough bladders. We don't have 
enough latrines. We don't have enough security. We don't have 
enough lights.'' Well, those were the things that both the 
government, the international aid communities, and the private 
sector had given us all a sense that were present. And still 
today, whatever's in warehouses, the coordinated effort is 
still largely dysfunctional.
    And so, it should not be such a--if there--if it is 
decisive and bold, as has been the--those tragedies that took 
place on--when Lieutenant General Keane was present with a 
larger amount of U.S. troops, that clear and decisive strategy 
is what led to the beginning of what we have. Now it has to 
continue. And when it continues into the neighborhoods--for 
example, those inspected houses, by UNOPS and the Minister of 
Public Works and Transportation, that have been inspected and 
are safe from the--with no damage from this earthquake, you 
still, again, are going to have the issue of, ``Do we have the 
capability, the capacity of services as NGOs and others come 
in, to serve those areas for relocation?''
    Senator Corker. So, you're no shrinking violet.
    Mr. Penn. I'm sorry?
    Senator Corker. So, you're no shrinking violet. So, what is 
it that you would make happen, as far as the ability to get the 
things out of the warehouses, on the ground? I mean, what is 
the one thing that you, as a person who's witnessed this, who's 
been on the ground--I mean, what are--what is it we can do to 
change the dynamic of these things not occurring in a timely 
basis when the resources, it sounds like, possibly exist in 
various area of Haiti today?
    Mr. Penn. Well, I think one of the things is to leave it to 
those agencies that are able--those agencies and organizations 
that are immediately able to act with those things, and also to 
start changing the conversation related to equity and 
distribution of aid.
    What happens here is, you'll have an incomplete package of 
aid, something that will not ultimately be sustainable for the 
families that are given it, and that then, once that is 
distributed, you don't--you--when you try to enhance it to 
bring it up to something that will actually allow them a life 
forward, then people will tell you, in the agencies and in the 
government, ``Well, as long as we can't get that to everybody, 
that's too much,'' and you bring it down to an incomplete. So, 
what you're doing is, you're leaving one incomplete project as 
you move on to the next incomplete project.
    This is certainly true in the health care area, where we 
don't have--when there's, you know, advertisements of great 
immunization campaigns. Well, it's just simply not true. There 
is no great immunization campaign. So, what it comes down to is 
that I think that all agencies, all charitable organizations 
can declare, on a single Web site, what's available, in terms 
of tents, tarps, temporary structures, heavy equipment, all of 
those things, and then those organizations that are able to, 
with the cooperation of the Government of Haiti, establish some 
legal means by which they can relocate people, whether that's 
on a sunset basis or on a permanent basis, with an assistance 
package that's definable and sustainable, as well, so that 
those organizations can be, in effect, deputized to go forward 
and make that happen.
    Senator Corker. I notice my time is up. And, Mr. Natsios, 
there's a lot of things, longer term--obviously, the immediate, 
with the season coming up, these obviously were more pertinent 
questions today. I do look forward to talking to you about the 
tension that you relayed regarding the governance issues and 
our desire to actually move beyond the way things have been in 
Haiti for years. So, I look forward to talking to you later.
    I thank you all for your testimony.
    And, Mr. Chairman and Mr. Chairman, for having this 
committee hearing.
    Senator Casey. Thank you, Senator Corker.
    Chairman Kerry.
    The Chairman [presiding]. Thank you.
    Mr. Natsios, I was reading your testimony, which I was not 
able to be here for. Obviously, you're telling it pretty 
bluntly, and you ought to. But, I was struck by a number of 
things.
    One, you say, ``The international business and capital 
markets do not invest money in failed states. And without such 
investment, job creation on the scale necessary to change the 
dynamics of Haitian society is impossible.''
    One question would be, How are we going to begin to create 
the transition necessary to get that kind of investment here?
    But, you go on to point out that the historical evidence 
suggests that countries can make significant reforms following 
a catastrophic natural disaster on the scale Haiti has been 
through. But, you also point out that, historically, Haiti's 
had a series of governments that have promised those, and 
nothing has happened, noting ``Baby Doc'' Duvalier, ``Papa 
Doc,'' the Tonton Macoutes, the predatory corruption, et 
cetera.
    So, where do you begin, here? I'd like to get a sense of 
how we take advantage of this moment to create the order out of 
chaos that has been the sort of political structure and some of 
the humanitarian situation in Haiti.
    Ambassador Natsios. Well, the first thing I'd say, Senator, 
is that in any major disaster, including in the United States, 
a great opportunity exists to undertake reforms. I might add, 
from my ``Big Dig'' experience, that I had a few weeks where I 
could do almost anything, within the law, of course--fire 
people and so on. But, once those few weeks was over, the old 
political alliances suddenly took hold, and I started having 
constraints on what I could do. I learned my lesson the hard 
way as I should have fired more people. I fired a whole bunch 
of people the first week, but I waited too long to fire others. 
That's true, to an exponential degree, in Haiti. It's true in 
any country with a crisis. Because a huge number of civil 
servants, many of whom were phantom or had never reported for 
work even though they got salaries. The very structure of the 
Haitian Government itself have been destroyed. When the 
ministries are flattened, people have been killed in the 
ministries, and you could legitimately go back and say, ``We 
are going to review all of the ministries to see who's a real 
employee.''
    The Chairman. Who's going to do that?
    Ambassador Natsios. Frankly--U.N.----
    The Chairman. Where does the sovereignty issue----
    Ambassador Natsios. Well, I think we need to say----
    The Chairman [continuing]. Fit into that?
    Ambassador Natsios.--The donors who are putting money into 
budget support, as the Brazilians just pledged, need to say to 
the Haitian Government, ``This money is not being released 
until you do a census, in each ministry, of who is real and who 
is not; and then, if they're real, are they part of their 
boss's patronage network, or do they have some qualification 
for their job?''
    The second thing I would do, which is very important, is to 
create an incentive within the United States capital markets to 
invest, which would be a free trade agreement. Congress, in 
2008, passed a law which established a partial free trade 
agreement for certain apparel items. It should be complete. And 
then, I think there would be a huge message to the business 
community, ``This is where we want to start investing.'' 
Because they did it before in the 1980s and 1990s, and then 
they all shifted their investments to Central America because 
of the political chaos and the sanctions regime. So, I think a 
free trade agreement would send a message that investment is 
wise.
    The third thing I would do can be taken from a mutual 
friend of ours, Michael Porter at the Harvard Business School, 
who is one of the leading experts in the world on microeconomic 
reform and competitiveness reform. We in USAID used his 
theories all over the world to guide reforms, to improve the 
business climate, and to make it easier to start new 
businesses.
    My old staff at AID said, ``Some of the things you tried, 
Andrew''--you know, experiments that weren't successful--``this 
experiment with microeconomics was the biggest success you had 
on the economics side.''
    We already proved it worked in a number of countries. 
There's no reason the same sort of thing can't be done in 
Haiti; you go through all the regulations and laws and see 
whether they encourage business creation and job creation or 
they do the opposite. If they do the opposite, you issue 
executive orders, through the President, to change them.
    King Abdullah of Jordan, in 28 days, passed more reforms 
than any other head of state in the world so Jordan could join 
the World Trade Organization. He has an 8-percent growth rate 
now in Jordan; or the last time I saw, it was 8 percent. His 
country has also enjoyed the fastest accession to the WTO and 
massive levels of investment. The whole country is being 
industrialized now. AID drafted a lot of the rule changes that 
he signed. In fact, he ordered us to do it. He told us, ``I 
want it done now.''
    If Preval is really interested in doing this, then he's 
going to offend interests because there are monopolies in the 
economy that don't want new businesses which might break their 
control of the economy. This is not just because someone wasn't 
paying attention; there are monopolistic business interests in 
the country that do not want competition from new businesses 
coming into the country.
    And so, I think there are three things that could be done, 
soon, that would have a positive effect on the business 
climate, and it would begin to change the dynamics of the 
economy.
    The Chairman. Very helpful. Has anybody consulted with you 
in this process?
    Ambassador Natsios. AID staff often consult with me.
    The Chairman. Current staff.
    Ambassador Natsios. Yes. Current staff. I don't think 
anybody in AID would disagree with anything I just said. Career 
staff. Dr. Shah wouldn't either, I don't think. He's focused on 
economic reform, himself.
    The Chairman. I understand.
    But, do you believe that the structure is in place to 
accomplish what you just talked about?
    Ambassador Natsios. UNDP is capable because I believe 
they're the ones managing the Multi-donor Trust Fund. I sit on 
their advisory board here in Washington.
    We must say to the U.N. or World Bank, ``we will 
politically get behind you''--because they can't do this alone. 
There's going to be huge resistance from the political bosses 
in Haiti to purge the lists. Because, if you purge the lists, 
you're going to cause explosions. So, you have to get the Bank 
or U.N. agencies behind the reform, and all the donors and 
embassies to say, ``if anybody starts causing trouble, we will 
be with you.'' If you just tell them to do it, and you don't 
get behind them, they're going to have trouble doing it, 
politically, because of the resistance.
    The Chairman. Well, I think it's a--let me just say--I've 
said this a couple of times, previously--it's a prerequisite to 
getting this done. Nobody's in a mood to throw money into a 
hole, here. That's not going to let anybody dig out of 
anything. We've been down this road, several times. And I think 
this is a unique moment for a reformation, with respect to the 
entire structure.
    Also, I think, if you're going to attract the investment 
and get the diaspora to be investing and doing the things 
necessary, it's going to be critical for them to see that there 
is that transformation.
    Do either of you, the other witnesses, want to add to that?
    Yes, Mark.
    Mr. Schneider. Yes, just a couple of things.
    One is, with respect to, essentially, opening U.S. markets. 
That actually is something that Brazil's Foreign Minister urged 
at the Donor Conference in New York, for the entire global 
community, that all restrictions on Haiti's exports should be 
removed. I think that that makes a lot of sense at this point.
    Second, it's not a totally negative situation with respect 
to investment. The Royal Caribbean Cruise Company has a $50 
million investment program in the north. That's continuing. 
They have announced that it's going to move forward. 
Telecommunications investment, as well, are being made.
    The issues are whether you're going to be able to ensure 
there's security and a sense of the government dealing with 
some of the policy issues that then sustains investment. The 
legislation just passed by the Congress, in terms of opening up 
U.S. markets with respect to textiles, assumes that's going to 
permit something on the order of 40 or 50,000 additional jobs 
in that apparel industry, which is quite positive.
    The one area where I say--that Andrew just mentioned--that 
I think is probably an area that has not had a sufficient 
focus, is on small business--not micro-enterprise. There's 
movement there. There's a lot of investment there. But, on 
small business, particularly those who lost their stores, their 
small operations, in the quake. There isn't any credit 
operation there that's available for them to restart. And a lot 
of them lost their homes, too. And that, I think, is an issue 
that needs more attention.
    The multilateral trust fund is going to be run by the World 
Bank, but UNDP is going to be a critical advisor in that.
    And I guess the only other thing that I would say is that 
budget support--yes, is needed, with the right kinds of 
conditions to provide assurance of transparency. The reason 
that Haiti has a deficit of about $270 million, is because of 
the quake. The last 2 years, they ran their macroeconomic 
policy framework fairly well. They got kudos from the World 
Bank, the IMF, the United States, et cetera. And they were able 
to get to the HIPC threshold point. Right now, though, they've 
got to pay their teachers, they've got to pay their police, and 
they don't have the resources.
    So, I think that the fact that the supplemental includes 
provision for budget support is important. The United States 
can target that, and monitor it to, let's say, pay for the 
salaries of the police and teachers that are working.
    The Chairman. Mr. Natsios, let me pick up on two things, 
quickly. One, you said there has to be--to accomplish what we 
need to in Haiti, you say there has to be a reduction of 
regulatory compliance burden on USAID.
    Ambassador Natsios. Yes, I did.
    The Chairman. That obviously pertains to us, among others. 
Speak to that, would you, just for a minute?
    Ambassador Natsios. I will. I've written an essay on this 
matter, which is actually three chapters of a book I'm writing 
on foreign aid, that'll be published by the Center for Global 
Development. I will send it to your staff next week.
    But, Nancy Birdsall is publishing the essay. It's going to 
upset some people. I didn't understand this, to the extent that 
I was able to after I left office; I studied the General 
Accounting Office, the Inspector General's Office, the Office 
of Management and the Budget, the Federal Acquisition 
Regulations, which are now 1,973 pages long, and the oversight 
committees of Congress--principally, not foreign oversight but 
foreign policy oversight. The Federal Acquisition Regulations, 
you have no control over as that's done by another committee in 
Congress. The Embassy Security Act, also not done by your 
committee. It's draconian. They call the AID missions in many 
countries ``prisons'' because the AID officers can't get out; 
neither can the Embassy diplomats because no other country in 
the world has these kinds of restrictions on it.
    The worst thing that can be done in these emergencies, 
which I urge you to avoid in this bill, is that OMB judges how 
AID is doing by how fast it disburses money, not by whether the 
policy's the right one, the program is the right one. If you're 
dealing with a failed state, everything moves in slow motion. 
If you have local input, it slows down even more.
    The Chairman. Yes. Yes.
    Ambassador Natsios. And so, I would urge you to avoid using 
disbursement rates as the principal mechanism for judging 
whether AID is doing a good job. That's done all over the 
world. It's a stupid standard, in my opinion.
    The Chairman. Well said. We've got to spend some time 
together.
    I'm not going to ask you the next question now, because I 
want to--I'll take it up--but, I want to talk to you about the 
institutional--institution-based model that you talk about. 
Because we have to get this right, and it deserves more time. 
And we'll do it.
    Mr. Penn, last question before I have to run, here, in a 
moment. What do you need to get the--you need a decision, 
right, about moving people? There has to be some clarity with 
respect to where you're going to go, in terms of getting people 
into the greenhouses and moving them appropriately. What's it 
going to take to do that? What's the restraint on that 
happening right now? Is that a decision that has to be made by 
President Preval? Does this involve the U.N.? Who has to make 
that decision? And how do we get that?
    Mr. Penn. It's President Preval, and it's an acceptance of 
the reality and the enforcement of it by the U.N., in the sense 
that most of the people in the IDP--in our camp are renters. 
They could be going back to a situation either where there is 
an exploitation of the landowners by people who had not resided 
there, or an exploitation by landlords of those who come back, 
and rent-gouging. There's got to be some kind of a forgiveness 
of the last 4 months of rent--people do not have the money to 
pay that--and assistance package that allows them to get by 
with some reasonable sense of a future-building and getting 
their legs, without the overbearing outsiders' notion of what 
their job is to empower and create independence. Right now, to 
build the house, they're going to have to have nails and a 
hammer.
    So--and we need that definition of what the proof of 
ownership is, some protection from rent-gouging, and then, from 
the international community, the clear resources to make 
communities, many, in which case, don't have any access to 
water, many that will need security provisions, and so on, 
especially as it relates to putting in T-shelters on rubble-
clearance sites, and, while those happen, not to have people 
who had not lived there before.
    So, it's those clear definitions that allow us, as merely 
supplemental or supportive agencies of the Haitian people, to 
be able to go in and do what we have to do.
    The Chairman. Well, I'm getting a sense from each of you, 
in the course of this, the way these challenges are sort of 
sitting out there, that there is, in this crisis, an absence of 
a kind of focus point of decisionmaking, a kind of leadership 
structure and/or that we're sort of trapped in a lot of 
bureaucratic tug and pull. And we have to break out of that. Is 
that a fair statement for each of you? I see you nodding.
    Mr. Penn, yes?
    Mr. Penn. Yes. Yes.
    The Chairman. Mr. Natsios.
    Ambassador Natsios. Absolutely.
    The Chairman. Mr. Schneider.
    Mr. Schneider. In part. I think that there's a need in 
Haiti for that central coordination and also in the United 
States.
    The Chairman. Right. But, as of now----
    Mr. Schneider. It doesn't exist.
    The Chairman [continuing]. It isn't there. And so, we're 
going to watch this thing, potentially, unravel, rather than 
move in the direction that we want it to.
    Senator Corker, do you have anything additional?
    Senator Corker. No, I think--before you had arrived, I 
mean, I--you know, we're in--we have----
    The Chairman. That says it all.
    Senator Corker [continuing]. We have this tension that 
exists, because this country is a sovereign country. And we 
should respect that. We have people on the ground, though, that 
are not being dealt with appropriately. And I know, even months 
ago, when this first began, in this committee, you know, we 
talked about that tension and how this was an opportunity, on 
one hand, to maybe break out of it. But, we're still not doing 
that. And I think the frustrations that Mr. Penn is having on 
the ground, that Mr. Schneider has observed, they still exist. 
I don't sense there's a will--and I don't even know what the 
right answer is. OK? I don't know how you work around a 
``sovereign government,'' with an ``international community,'' 
in--as our previous panel said, it's a ``cluster system,'' 
which I think is well-defined--I don't know how we do that.
    And, Mr. Chairman, I'm very frustrated, but I thank the 
witnesses for all that they've contributed, but I think that we 
still have not, as a country, made some of the tough decisions 
that need to be made.
    I will say that Mr. Penn's testimony pointed to the great 
work our military was doing. They're now not there in the form 
they were before or in the presence they were before. But, I 
hope that those of us who care about this have some ability to 
make things happen in a different way than they are right now, 
and I don't know what the----
    The Chairman. I agree with you.
    Senator Corker [continuing]. Answer is.
    The Chairman. Well, I think you--as I mentioned earlier, 
the sovereignty issue is an important one. But, I'll tell you 
this, if countries are going to be putting $15 billion in 
there, and they're going to be investing in the future, they 
have a right to expect that the sovereignty is going to be 
cooperative and there is a way to move forward.
    Mr. Penn. If I may, Mr. Chairman?
    The Chairman. Yes.
    Mr. Penn. If there's one thing that combines all the issues 
both of rebuilding and disaster relief, that really needs the 
immediate attention, without any bias towards any disagreements 
that may exist between the Government of Haiti and anyone else, 
the hospitals that do exist in the biggest city of the biggest 
natural disaster, with such a death toll, and with all of the 
emergencies that are coming our way, likely, with these rains, 
these hospitals have got to be staffed, have got to be 
supplied, and have got to be administrated to.
    The Chairman. I couldn't agree more. As you know, my 
daughter spent a week down there as a doctor, working in the 
hospital, and came back with lots of those observations and 
notions. And it's something we have to do.
    So, we have our work cut out for us. We're enormously 
appreciative of you--each of you coming, sharing your thoughts 
today. It's very, very helpful. There's a lot on the table for 
us to digest, and I promise you, we'll get back to you and 
follow up on these things. Look forward to doing that.
    Thanks so much.
    We stand adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this hearing. I want to thank 
all of our witnesses for coming before this committee today, especially 
Ambassador Merten who has done a tremendous job leading his Embassy 
team in Port-au-Prince during what was, and still is, a catastrophe. 
Our many thanks to you and your entire staff for your remarkable public 
service. I also look forward to hearing from the rest of our witnesses 
who bring a wealth of knowledge, experience, and passion to this 
matter.
    The United States Government has provided more than $1 billion in 
humanitarian funding for Haiti and the private sector has likewise 
contributed an additional $1 billion. We as a nation can, and should 
be, proud of that contribution and all the people that have been helped 
as a result.
    I am also proud to have authored the Haiti Recovery, along with 
Senator Dick Lugar, and thank the chairman of this committee and others 
for their support. That legislation was recently signed into law by 
President Obama, and as a result, important steps have been taken to 
relieve Haiti of its outstanding international debt, and to set up 
international trust funds for Haiti to support investment in 
infrastructure including the development of electric grids, roads, 
water and sanitation facilities, and reforestation initiatives.
    However, despite these important first steps, I have a series of 
fundamental questions that I believe need to be answered before we can 
hope to see tangible and real progress in rebuilding Haiti. In my view, 
the challenge of rebuilding Haiti is not that we don't know how to do 
it, or what needs to be done.
    In fact, it seems as though the Haitian Government has signed off 
on a comprehensive rebuilding plan that includes essential elements 
including temporary shelter (and moving people out of sprawling tent 
camps as quickly as possible), urban development, security, health, 
water, energy, infrastructure, and education. I understand that it 
includes capacity-building within the Haitian Government
and focuses on distributing the population away from already 
overcrowded urban centers.
    So in many senses the roadmap is clear. But my question is, Who is 
driving? Who is truly leading this effort and is the Haitian Government 
actually capable of leading its own recovery effort? Empowering Haiti 
to rebuild assumes that Haiti has the capacity to rebuild itself, and 
I'm frankly not sure that is the case. What does the international 
footprint in Haiti look like and what should it look like given the 
magnitude of the devastation and the extraordinary cost involved in 
rebuilding the country?
    Will most of the burden fall on the United States or do we have 
truly willing and capable international and Haitian partners?
    I do not believe, of course, that we should occupy Haiti. We should 
not take lightly the importance of sovereignty, not discount the 
Haitian people's long history of enduring difficult times. But we 
cannot pretend that Haiti can lead its own reconstruction. The goal is 
simple: Provide Haitians with a legitimate, functional state--one 
capable of managing the day-to-day tasks of government and providing 
security, economic stability, and social services. But I worry that how 
we achieve it is far less clear.
                                 ______
                                 

     Response of Ambassador Kenneth Merten to Question Submitted by
                      Senator Russell D. Feingold

    Question. I understand that decentralization has been an 
intentional effort of the post-earthquake phase with a particular focus 
on agriculture. Can you describe in more detail the agriculture 
strategy being developed? What kinds of efforts are being made to 
provide opportunities for people who have settled outside the city and 
may wish to remain there instead of returning to the city to do so?

    Answer. As we work with the people of Haiti to ``build back 
better,'' the United States Government (USG) supports the Government of 
Haiti (GOH) plan to strengthen its agricultural sector and cope with 
the displaced persons in the peri-urban centers and rural areas. 
Agriculture is central to the Haitian economy, generating nearly 25 
percent of GDP and employing over 60 percent of the population. The 
USG, along with other donors such as France, Canada, Spain, Brazil, the 
Inter-American Development and World Banks, the Food and Agriculture 
Organization (FAO) and the Inter-American Institute for Cooperation on 
Agriculture (IICA), along with Haitian and USG civil society members, 
endorsed the Haiti Country Investment Plan for agriculture June 2. This 
Country Investment Plan for agriculture includes specific goals to 
boost economic opportunities and food security for the displaced 
persons and the rural sector. Consistent with the administration's 
Global Hunger and Food Security Initiative (GHFSI) and GOH plans, USG 
agriculture investments will be made across the supply chain from 
research to the farm to the market to the table. These investments will 
help modernize infrastructure, jump-start rural economic growth and 
development, empower small farmers, expand farmer access to markets and 
value chains, reestablish agricultural services and rebuild 
institutional capacity, and improve natural resource management.
    To ensure sustainability of the private sector investments, the USG 
will also work to build capacity at the Ministry of Agriculture. We 
will train and deploy Haitian technical trainers and extension agents. 
We will also help provide basic services such as access to inputs and 
supplies, and of critical importance will focus on small-scale farmers, 
and areas with the greatest potential to increase employment. USG 
resources will target and integrate investments across three geographic 
corridors identified by the GOH as priority growth poles for new 
development: (1) The Saint Marc Corridor which will be anchored by the 
St. Marc growth pole; (2) the Northern Corridor which will be anchored 
by the Cap Haitien growth pole; and (3) the Cul-de-Sac Corridor which 
will be anchored by Port-au-Prince.
    Closely linked to Haiti's ability to develop a functioning 
agriculture sector, and more urgently, to its ability to withstand 
future hurricanes and storms, is the need for radically improved 
natural resource management in Haiti. The USG strategy for Haiti will 
focus on watershed management and on growing the market for alternative 
cooking fuels, including Liquefied Petroleum Gas (LPG), particularly in 
Port-au-Prince and the new urban growth poles.
                                 ______
                                 

     Responses of T. Christopher Milligan to Questions Submitted by
                        Senator Richard G. Lugar

    Question. S. 3317 would authorize funds for assistance to Haiti in 
fiscal years 2010 through 2014.

  <bullet> Does the administration have a view on the appropriate 
        funding levels for assistance to Haiti in fiscal years 2012 
        through 2014?
  <bullet> Does the administration consider it important that the 
        Congress authorize assistance for those years now, rather than 
        doing so in connection with future year budget requests?

    Answer. We are pleased that Congress supports long-term efforts to 
help Haiti recover from the worst recorded natural disaster in the 
Western Hemisphere. Demonstrating through this legislation that the 
American people are committed for the next 4 years will both send a 
message to the Haitian people and to other donors about our commitment 
to Haiti, but it will also allow the administration to plan a robust 
reconstruction effort. At this time we do not have a completed budget 
request for fiscal years 2012 and beyond; however, we look forward to 
working closely with Congress to determine appropriate funding levels 
and timelines.

    Question. In your testimony, you state in connection with S. 3317 
that ``Given the uncertainties that lie ahead, it would be our 
suggestion to provide the administration and those of us on the ground 
greater flexibility and to allow us to work closely with you on how to 
best implement our programs.'' Do you believe S. 3317 as drafted 
provides the flexibility you refer to here? If not, please indicate 
what changes in the legislation you would recommend to provide such 
flexibility.

    Answer. USAID appreciates changes to the bill that increase 
flexibility and minimize administrative burdens, particularly the 
change in reporting requirements to harmonize with the agency's 
existing reporting schedule. We support the spirit of the legislation 
and look forward to working with the committee as it moves forward.

    Question. What is the administration's assessment of the capacity 
of Haitian institutions to implement programs consistent with the 
objectives of S. 3317? To what extent does the administration envision 
the need to rely on non-Haitian implementing partners in order to 
implement assistance programs effectively?

    Answer. Haiti's profound development and political challenges have 
been in part the result of weak public institutions, poor public 
financial management, political instability (10 Presidents and several 
coups since 1990) and vulnerability to corruption. In the absence of a 
strong government, international NGOs, which are vital implementing 
partners for the USG, are often relied upon for basic services.
    Our implementation strategy includes capacity-building of the 
government at all levels to provide essential services currently 
needed, and to plan, manage, and budget for operations in the long 
term. We will partner with the GOH to mutually invest in the technical 
capacity of the Finance Ministry and other key institutions. This 
partnership will improve the GOH's ability to create and manage budgets 
in a transparent fashion, collect taxes, and effectively use limited 
resources in support of ongoing development. In addition, we will 
support and grow local civil society institutions so they can hold 
their government accountable during reconstruction and into the future.
    We are actively encouraging the utilization of Haitian-American and 
local firms and NGOs in reconstruction activities. Through outreach 
efforts, we are engaging directly with the U.S. Haitian-American 
community, helping them understand the U.S. foreign assistance strategy 
and how to best do business with USAID. Other encouragement may include 
conducting assessments of local NGOs and providing technical assistance 
to build their organizational capacity to receive direct awards. In the 
future, such cooperation with these firms and NGOs may include public-
private partnerships.

    Question. What steps does the administration intend to take to 
monitor and evaluate assistance programs for Haiti to ensure that such 
programs effectively produce the desired outcomes?

    Answer. The Department of State and USAID recognize that monitoring 
and evaluation are essential to measure the impact and effectiveness of 
our sustained investment of hundreds of millions of dollars. Under the 
USG post-earthquake strategy for Haiti, the U.S. Mission in Haiti will 
establish an independent monitoring and evaluation (M&E) team of 
specialists who will collect and analyze data on program performance, 
and issue summary evaluation reports.
    Monitoring and evaluation systems will be integrated into the 
design of every USG-funded program. To ensure cost-effective data 
collection, the USG will invest in a cross-sector, strategy-wide data 
collection platform so that each program shares a common system. 
Through this system the M&E team will track inputs, activities, 
outputs, outcomes and impacts of development activities at the project, 
program, sector and national levels. The M&E team will then use this 
information to evaluate the design, relevance, effectiveness, and 
impact of the development program. Attention will also be paid to the 
efficient use of resources, and the sustainability of the results 
beyond donor funding.
    Thorough assessment at every level will help create an overarching 
impact evaluation of the national development strategy. Over time, the 
USG will learn from the successes and failures of its strategy and will 
make course corrections as necessary. Future programming will benefit 
from evidence-based designs that take the lessons of past evaluations 
into account.
    To help make the USG Haiti strategy sustainable, these M&E systems 
will be integrated, shared, and transferred to public sector entities 
as appropriate. The USG will also partner with the GOH to train 
officials in data collection, evaluation techniques, and evidence-based 
best practices.

    Question. S. 3317 provides authority for assistance funds to be 
contributed to a multidonor trust fund for reconstruction and recovery 
expenses related to Haiti.

  <bullet> Does the administration envision providing assistance 
        through one or more such multidonor trust funds? If so, please 
        give examples of particular multidonor funds the administration 
        might consider utilizing for such purposes.
  <bullet> Of the amounts the administration has requested for 
        assistance to Haiti for fiscal years 2010 and 2011, what 
        portion of such funds does the administration envision using 
        for contributions to such multidonor funds?

    Answer. It is clear that the destruction of the earthquake 
substantially reduced GOH revenue, creating an urgent need for budget 
support. We anticipate that the Multi-Donor Trust Fund established by 
the World Bank will provide an appropriate vehicle for channeling 
budget support, while a United Nations Development Programme trust fund 
will be an essential support upcoming elections.
    The overall strategy recognizes that successful reconstruction 
efforts will require both strengthened Haitian institutions and 
cooperation with non-Haitian implementing partners. USAID has set the 
enhancement of Haitian public institutions' capacity as a vital 
element.
    Prior to the Haiti Donors' Meeting in New York on March 31, USAID 
and the Department of State worked closely with key donors, including 
the European Commission, Canada, Spain, France, Brazil, U.N. and World 
Bank to support the creation of both the Interim Haiti Recovery 
Commission (IHRC) and the Haiti Reconstruction Fund (also known as the 
Multi-Donor Trust Fund). As these two mechanisms are established they 
will create a mutually beneficial relationship that will be integral to 
aligning donors around the GOH strategy. The IHRC will also provide 
oversight, transparency, and monitoring of the funds spent through the 
Multi-Donor Trust Fund.
    The President's supplemental budget request for Haiti references a 
U.S. contribution of up to $120 million to the Multi-Donor Trust Fund. 
Any decision for the USG to contribute to this fund will depend on our 
confidence that it is being administered effectively and transparently 
and that it would be the best use of taxpayer funds.
    USAID also anticipates granting approximately $5 million to the 
United Nations Development Programme (UNDP) to support upcoming 
elections in Haiti. UNDP will administer and manage donor contributions 
to the electoral budget through a trust fund (separate from the World 
Bank-run multidonor trust fund). The UNDP trust fund will be an 
important vehicle to facilitate and coordinate donor resources for 
impending elections. It will fund technical and logistical support to 
the elections commission, and supervision of the electoral process to 
ensure that international standards are met. The USG contribution will 
help fund election commodities such as ballots and ballot boxes, voter 
education material, and training material.
                                 ______
                                 

     Responses of T. Christopher Milligan to Questions Submitted by
                      Senator Russell D. Feingold

    Question. How is USAID seeking to gain systematic, regular 
participation by a broad range of Haitian civil society groups into the 
planning, implementation, and evaluation of its programs?

    Answer. USAID recognizes civil society groups as important 
partners, both in the immediate reconstruction process, and in the long 
term as we work with the people of Haiti to build a sustainable, 
democratic, and economically vibrant future. Civil society 
participation is a cross-cutting theme throughout all USAID programs in 
Haiti, and the President's Supplemental Request for Haiti contains $62 
million for public institution and civil society strengthening. We will 
support local civil society institutions so that they can play a key 
role in reconstruction and hold government accountable in the future.
    Community participation is a principle that serves as a cornerstone 
of our agency. USAID's Office of Transition Initiatives (OTI) currently 
implements a program to enhance citizen participation in relief and 
recovery. It establishes venues such as focus groups, media 
programming, and press conferences, through which citizens and 
government officials discuss Haiti's reconstruction and ways in which 
citizens can participate. It also builds Government of Haiti (GOH) 
capacity to use electronic media, Internet-based platforms, and direct 
interaction with community members to seek information regarding local 
and national development priorities. This improved information-sharing 
will increase government transparency and cultivate a culture of 
government accountability to citizens. In addition, OTI implements a 
community driven temporary employment program, reclaiming neighborhoods 
by clearing rubble from public spaces, thoroughfares, schools and 
hospitals. This program links local governments with their 
constituents. Members of the community join the Mayor in a 
participatory process of selecting residents for cash for work teams. 
Those people selected then have the opportunity to earn wages while 
contributing to the cleanup and rebuilding of their neighborhoods.
    We support the GOH's decision to include a civil society 
representative on the board of the Interim Haiti Recovery Commission 
(IHRC). We also anticipate that the IHRC, in its role as a coordinating 
body, will facilitate dialogue between civil society, government, and 
other actors in the reconstruction efforts. The IHRC is committed to 
ensuring mechanisms are in place to guarantee transparency and 
accountability, investigate complaints and measure impact. Through 
these mechanisms, the people of Haiti will play a crucial part in 
ensuring reconstruction efforts progress transparently and fairly. 
(More information about the IHRC can be found at www.ihrc.ht.)
    Additional oversight and evaluation will come from the USAID Office 
of the Inspector General. Funding requested in the proposed 
supplemental bill will help the Office of the Inspector General to 
ensure that USAID resources in Haiti are used for the greatest good and 
that additional oversight is provided on the ground in Haiti. This will 
support an array of oversight activities, including outreach and 
education, financial audits, performance audits, investigative 
activities, and coordination and staffing.
    Monitoring and evaluation (M&E) systems will be integrated into the 
design of every USG-funded program. These systems will track inputs, 
activities, outputs, outcomes and impacts of development activities at 
the project, program, sector and national levels. The M&E teams will 
then use this information to evaluate the design, relevance, 
effectiveness and impact of the development program. To help make the 
strategy sustainable, these M&E systems will be integrated, shared, and 
transferred to public sector entities as appropriate. The USG will also 
partner with the GOH to train officials in data collection, evaluation 
techniques, and evidence-based best practices.
    We will also encourage greater use of Haitian-American and local 
firms and nongovernmental organizations (NGOs) as we implement 
reconstruction activities, including those executed through public-
private partnerships. This may include assessing local NGOs and 
providing technical assistance to build their organizational capacity 
to receive direct awards. We are also engaging directly with the U.S. 
Haitian-American community, helping them understand the U.S. foreign 
assistance strategy and how to do business with USAID.

    Question. While international coordinating bodies and the Red Cross 
are reporting that over 90 percent of earthquake survivors in need have 
received adequate shelter and aid, reports from many camps in and 
around Port-au-Prince vary widely and many paint a far less promising 
picture of the continuing emergency. The President of one camp, the 
Automeca camp, a ``priority'' camp located in Port-au-Prince, reported 
on May 3 that no food aid has reached the camp since February and only 
three food deliveries were carried out in total. Apparently, 80 percent 
of officially sanctioned camps still have no camp managers and thus no 
real conduit to the international aid coordinating bodies. What is 
being done to address this ongoing emergency situation and how can 
USAID encourage the international coordinating bodies and the cluster 
system to work more closely with Haitian civil society and the 
leadership structures set up by IDP camp residents to improve the 
coordination and regularity of aid delivery and assistance?

    Answer. USAID continues to play an active role in the coordination 
of humanitarian aid to populations affected by the January 12 
earthquake in Haiti. USAID staff remain actively involved with the 
Government of Haiti and United Nations to improve the situation of 
displaced people by responding to ongoing and emerging needs, and 
contributing to the reconstruction process. USAID partners continue to 
implement programs and deliver services.
    USAID strongly encourages its partners to coordinate both with the 
international humanitarian coordination system and with members of 
local Haitian leadership. Recognizing the importance of such 
collaboration to the effective program implementation and prevention of 
overlap and duplication in programs, USAID implementing partners 
regularly conduct beneficiary identification and program design 
activities in consultation with local authorities and communities.
    The International Organization for Migration (IOM), as head of the 
Camp Coordination and Camp Management (CCCM) Cluster, has developed a 
system for communicating and coordinating with the local camp 
leadership. According to the latest data from CCCM Cluster, 63 percent 
of the IDP population who reside in camps do not have a formal camp 
management agency. However, at least 97 percent of all IDP camps have 
informal camp management committees, and the international community 
recognizes the vital role that this local leadership plays. IOM has 
provided mobile phones to the leaders of camp committees to facilitate 
communication with assigned IOM Camp Management Officers and provide 
access to the international humanitarian coordination mechanisms such 
as the cluster groups. IOM has trained approximately 400 formal and 
informal camp managers and continues to conduct trainings in English, 
French, and Creole.
    USAID is also beginning a project in which we will train community 
mobilizers to facilitate two-way information exchange regarding camp 
management, relocation processes and resettlement options. This 
project, implemented through IOM, aims to ensure that messages between 
the government, the humanitarian community and the affected population 
are coordinated and effective. The community mobilizers will maintain 
open communication channels to help the affected population stay 
abreast of developments and enhance their ability to make informed 
decisions. Concurrently, the mobilizers will collect and analyze 
information provided by the IDPs for use by the humanitarian community 
to better meet their needs and formulate effective policy.
    Regarding food distribution, from January to mid-April, the U.N. 
World Food Programme (WFP) and partner NGOs, with substantial USAID 
support, met the urgent food aid needs of approximately 3 million 
people or roughly a third of Haiti's population, in the immediate 
aftermath. Currently, WFP and partnering NGOs are providing additional 
targeted food aid assistance to identified vulnerable populations 
(predominantly women and children).
    USAID and its partnering NGOs continue to provide services in many 
camps including free, safe, drinking water distribution and health 
care. USAID also supports cash-for-work and food-for-work programs 
nationwide. USAID regularly meets with WFP and implementing partners to 
monitor the effectiveness of these programs and follow up on reported 
programming gaps.

                                  <all>

</pre></body></html>
